""



     '''VIC'S



                       DEPARTMENT OF HEALTH &. HUMAN                       SERVICES                              Office of Inspector General


      "'IJO                                                                                                      Washington , D. C.   20201


                                                                        APR 3 0 2004




              TO:                 Edwin L. Walker
                                  Deputy Assistant Secretary for Policy and Programs
                                  Administration on Aging

              FROM:               MarkR.Yessian                                 tt

                                  Acting Deputy Inspector General for                        and Inspections
                                                                                     ition
              SUBJECT:            Performance Data for the Senior Medicare Patrol Projects: Apri12004
                                  Performance Report (0 EI - 02- 03- 00122)


              At the request of the Administration on Aging (AoA), the Office of Inspector General (OIG)
              collects performance data from the Senior Medicare Patrol Projects. These projects receive grants
              from AoA to recruit retired professionals to serve as educators and resources in assisting Medicare
              beneficiares to detect and report fraud , waste , and abuse in the program. With the addition of 6
              new grants , a total of 58 projects operated from July through December 2003. At least
              1 project is located in each of the 50 States , the District of Columbia, and Puerto Rico.

              In the past 6 months , from July through December 2003 , the 58 projects educated approximately
              194 000 beneficiaries in 78 233 training sessions and one-on-one sessions. As a result of
              educating beneficiaries , the projects received 4 638 complaints. They referred 1 205 of these
              complaints to Medicare contractors for follow-up, and 638 resulted in some action        , closed by
              the Medicare contractor or investigative agency. In total , the projects documented $151,450
              recouped to the Medicare program. The projects also reported savings of$260 100 to
              beneficiaries , of which $19 555 was documented. In all of these cases , the projects provided
              descriptions of out-of-pocket expenses being returned to beneficiaries and savings due to
              resolution of billng errors.

           In February 1999, OIG issued a report on the projects ' first year performance data
           (OEI- 02-97- 00522). OIG has since released reports on these performance data for each
           subsequent 6-month period. Since the inception of the program , 62 projects (4 of which closed
           between June 2002 an June 2003) have educated over 1. 5 million beneficiaries in approximately
           373 000 training sessions and one-on-one sessions. As a result of educating beneficiaries , the
           projects received 37 763 complaints , of which 3 842 resulted in some action. Savings to the
           Medicare program attributable to the projects totaled $3. 9 million. Self-reported savings to
           beneficiaries , Medicaid , and other payers were approximately $99. 6 million. Prior to this reporting
           period , we did not specifically ask for documentation or explanations for savings other than
           Medicare.

              I As of July 2003
                                   57 projects are funded and 1 project continued operating through December with prior year fuds.
Page 2 – Edwin L. Walker 


However, we are aware that most of these savings are the result of one project’s involvement in 

adjustments to Medicaid claims for individuals entitled to both Medicaid and Medicare. The 

appendices contain more information on the performance of each grantee.


We continue to emphasize that the number of beneficiaries, who have learned to detect fraud, 

waste, and abuse from the Senior Medicare Patrol Projects, and who subsequently call the OIG 

fraud hotline or other contacts, cannot be tracked. Therefore, the projects may not be receiving full 

credit for savings attributable to their work. In addition, substantial savings, which cannot be 

tracked, may be derived from a sentinel effect whereby fraud and errors are reduced in light of 

Medicare beneficiaries’ scrutiny of their bills.


In December 2003, OIG and AoA continued their partnership by discussing ways to improve the 

performance measure reporting process and the usefulness of the reports for AoA and other 

decision- makers. We incorporated AoA’s suggestions by modifying the data collection 

instrument, the contents of the memorandum, and the data presented in the appendices. One of the 

key changes is that we now request documentation to substantiate all savings, and we report 

savings, differentiating between documented and self-reported. Please note that we do not 

independently verify the accuracy of any of the self-reported data.


In this review, we also found some concerns about the system developed by the Centers for 

Medicare & Medicaid Services (CMS) to help track complaints and Medicare funds recovered by 

the Senior Medicare Patrol Projects. Since its implementation over 2 years ago, OIG has received 

documentation forms from an average of seven projects for each reporting period. During this 

reporting period, four projects noted that the tracking system has failed to produce the results 

expected. The contact persons at these projects commented that they are still unc lear how the 

tracking system actually works, or that they are frustrated that they have not received any 

documentation of savings from the system. 


Based on this information, we encourage additional collaboration between AoA and CMS to 

continue to improve the process of reporting Medicare savings. We also encourage AoA to 

provide clear instructions for using the system to the grantees in order to maximize documented 

savings. The national conference for the Senior Medicare Patrol Projects in July 2004 presents an 

opportunity for AoA and CMS to provide additional instructions and training on this topic. 


We will continue to monitor the projects and provide you with summary reports of performance 

data. If you have any questions or comments about this report, please do not hesitate to call me at 

(202) 619-0480, or one of your staff may contact Jodi Nudelman, Acting Regional Inspector 

General for Evaluation and Inspections, New York Region, at (212) 264-2000.


5 Attachments

Appendix A - Summary of Performance for All Projects Since 1997

Appendix B - Summary of Performance for All Projects for 2003

Appendix C - Projects’ Results for Each Performance Measure

Appendix D - Individual Project Results for 2003

Appendix E - List of 2003 Senior Medicare Patrol Projects

   Senior Medicare Patrol Projects’ 2003 Performance Measure Results


                              List of Appendices
                                                                          Page

Appendix A: Summary of Performance for All Projects Since 1997…………………...……………4


Appendix B: Summary of Performance for All Projects for 2003………...…………………………6


Appendix C: Projects’ Results for Each Performance Measure……………...………………………8


Appendix D: Individual Project Results for 2003……………………………...……………………24


Appendix E: List of 2003 Senior Medicare Patrol Projects……………………...………………….84




                                                                             3

�    A P P E N D I X               ~     A 





                              Summary of Performance for All Projects Since 1997

The following table provides the overall performance measure results for all 62 projects that have ever operated since 1997.

Cumulative totals since 1997 are no longer reported for performance measure 9.

Total savings to Medicaid, beneficiaries, and other entities were not broken out prior to July 2003. Therefore, this table does not
contain data for performance measures 15A, 15B and 15C.




                                                                                                                                      4

  A   P    P   E   N   D   I   X   ~   A




                               Summary of Peformance for All Projects Since 1997
                                              OUTPUT MEASURES
      1    Number of training sessions conducted to train new volunteers                                        6,110
      2    Number of new volunteers trained                                                                    42,246
      3    Number of media events conducted                                                                    92,371
      4    Number of community education events conducted                                                      22,146
                                             OUTCOME MEASURES
      5    Number of volunteers who, for the first time, conducted activities to educate beneficiaries         15,469
      6    Number of group sessions for beneficiaries led by volunteers                                        31,054
      7    Number of beneficiaries who attended group sessions led by volunteers                            1,223,784
      8    Number of one-on-one sessions held between beneficiaries and volunteers                           341,828
  7+8      Total number of beneficiaries educated                                                           1,565,612
      9    Estimated number of people reached by media events                                                      NA
      10   Estimated number of people reached by community education events                                14,024,868
      11   Number of complaints received attributable to the project                                           37,763
      12   Number of complaints referred for follow-up                                                          8,386
      13   Number of complaints that resulted in some action                                                    3,842
      14   Medicare funds recovered attributable to the project                                            $3,903,344
   15A     Medicaid funds recovered attributable to the project                                                   NA
   15B     Savings to beneficiaries attributable to the project                                                   NA
   15C     Other savings attributable to the project                                                              NA
TOTAL
   15      Total Medicaid funds, beneficiary savings, and other savings                                   $99,578,630
14 + 15    Total savings attributable to the project                                                     $103,481,974



                                                                                                                   5

 �     A P P E N D I X              ~     B




                               Summary of Performance for All Projects in 2003

The following table provides data for the 59 projects that operated in 2003. In the first 6- month reporting period, January through
June, 53 projects operated. In the latest reporting period, July through December, 58 projects operated. Note that one of these
projects, North Carolina – Division of Aging, did not receive funding after June 30, 2003, but continued operating and submitted data.
They are no longer operating as of January 2004.

Data for performance measures 15A, 15B, and 15C for January through June are not available.




                                                                                                                                     6

A   P   P    E    N   D   I   X   ~    B



                                      Summary of Performance for All Projects in 2003
                                                                                      Total for       January through  July through
                                                                                       2003              June 2003    December 2003
                                       OUTPUT MEASURES
            1    Number of training sessions conducted to train new volunteers              1,536                  976           560
            2    Number of new volunteers trained                                           7,546                5,035         2,511
            3    Number of media events conducted                                          48,737               14,032        34,705
            4    Number of community education events conducted                             7,314                 4,945         2,369
                                      OUTCOME MEASURES
            5    Number of volunteers who, for the first time, conducted activities
                 to educate beneficiaries                                                   3,634                 2,069         1,565
            6    Number of group sessions for beneficiaries led by volunteers               9,714                 6,075         3,639
            7    Number of beneficiaries who attended group sessions led by
                 volunteers                                                               304,621              185,480       119,141
            8    Number of one-on-one sessions held between beneficiaries and
                 volunteers                                                               162,673               88,079        74,594
        7+8      Total number of beneficiaries educated                                   467,294              273,559       193,735
            9    Estimated number of people reached by media events                   103,656,543            67,468,838    36,187,705
            10   Estimated number of people reached by community education
                 events                                                                 1,923,396              730,396      1,193,000
            11   Number of complaints received attributable to the project                 14,621                 9,983         4,638
            12   Number of complaints referred for follow-up                                3,054                 1,849         1,205
            13   Number of complaints that resulted in some action                          1,516                  878           638
         14      Medicare funds recovered attributable to the project                     223,700              $72,250       151,450
        15A      Medicaid funds recovered attributable to the project                             0                 NA             0
        15B      Savings to beneficiaries attributable to the project                     260,100                   NA       260,100
        15C      Other savings attributable to the project                                        0                 NA             0
TOTAL 15         Total Medicaid funds, beneficiary savings, and other savi ngs         21,992,388           $21,732,288      260,100
    14 + 15      Total savings attributable to the project                             22,216,088           $21,804,538      411,550




                                                                                                                                        7

�   A P P E N D I X               ~     C 





                                Projects’ Results for Each Performance Measure

The following tables provide the results for each performance measure for each of the 59 Senior Medicare Patrol Projects.

Seven projects did not operate during all of 2003. Therefore, these projects do not have a complete year of data.




                                                                                                                            8

A     P    P   E   N   D     I   X   ~   C


                   PERFORMANCE MEASURE 1: Number of training sessions conducted to train new volunteers
                           January - June        July – December   Total 2003                         January - June   July - December       Total 2003
    Alabama                            15                     18             33     Nevada                        10                 4                 14
    Alaska                                5                   0                5    New Hampshire                 3                 1                  4
    Arizona                              35                  13               48    New Jersey                    1                 3                  4
    Arkansas                                 1                5                6    New Mexico                   12                 5                 17
    California                               4                6               10    New York                     35                27                 62
    Colorado                                 7                2                9    NC - DOA                     37                 0                 37
    Connecticut                          10                  16               26    NC – DOI                     NA                 0                  0
    Delaware                             16                   3               19    North Dakota                 NA                 5                  5
    DC – AARP                             0                   0                0    Ohio - COAAA                  6                 2                  8
    DC – FH                                  4                5                9    Ohio - PSI                    5                 1                  6
    Florida                                  7                7               14    Oklahoma                     12                 4                 16
    Georgia - ARC                            2                3                5    Oregon                        1                 7                  8
    Georgia - DHR                        49                  25               74    Pennsylvania                 10                 5                 15
    Hawaii                                6                   4               10    Puerto Rico                   8                 6                 14
    Idaho                                47                  14               61    Rhode Island                  1                 1                  2
    Illinois                              3                   6                9    South Carolina                4                 0                  4
    Indiana                               4                   6               10    South Dakota                  3                 1                  4
    Iowa                                 65                  42               107   Tennessee                    12                 4                 16
    Kansas                               NA                   0                 0   Texas - BBBEF                 3                 3                  6
    Kentucky                              5                   5                10   Texas - NHCOA                16                 2                 18
    Louisiana                             3                   2                5    Utah                         43                18                 61
    Maine                                31                  16               47    Vermont                      NA                 0                  0
    Maryland                             18                  25               43    Virginia                      5                 3                  8
    Massachusetts                        143                  8               151   Washington                  199               173                372
    Michigan                               2                 13                15   WV - AARP                   NA                  0                  0
    Minnesota                             8                   5               13    WV - URC                      4                NA                  4
    Mississippi                          32                  19               51    WI - CWAG                     5                 4                  9
    Missouri                              1                   1                2    WI - GLITC                   NA                 0                  0
    Montana                              12                   7               19    Wyoming                       1                 1                  2
    Nebraska                              5                   4                9


               PERFORMANCE MEASURE 1                         January - June                July - December                      Total 2003
                               TOTAL                              976                             560                             1,536
                                                                                                                                                            9

A     P    P   E   N   D     I   X   ~   C

                                          PERFORMANCE MEASURE 2: Number of new volunteers trained
                           January - June      July – December   Total 2003                         January - June   July - December       Total 2003
    Alabama                            60                  111            171     Nevada                        31                 5                 36
    Alaska                                8                 0                8    New Hampshire                37                 9                 46
    Arizona                              75                15               90    New Jersey                    8                38                 46
    Arkansas                               7               24                31   New Mexico                  260                 8                268
    California                            83               73               156   New York                    556                61                617
    Colorado                             122               20               142   NC - DOA                    138                 2                140
    Connecticut                          299              244               543   NC – DOI                     NA                 0                  0
    Delaware                              82                2                84   North Dakota                 NA                45                 45
    DC – AARP                              0                0                 0   Ohio - COAAA                 44                25                 69
    DC – FH                              23                 4                27   Ohio - PSI                   55                14                 69
    Florida                              78                56               134   Oklahoma                    146                30                176
    Georgia - ARC                         0                 2                 2   Oregon                       20                38                 58
    Georgia - DHR                        287               84               371   Pennsylvania                 68                23                 91
    Hawaii                                24                6                30   Puerto Rico                  12               117                129
    Idaho                                212                9               221   Rhode Island                  1                 5                  6
    Illinois                              14               29                43   South Carolina               52                 0                 52
    Indiana                               92               87               179   South Dakota                 35                 3                 38
    Iowa                                 320               54               374   Tennessee                    52                39                 91
    Kansas                               NA                 0                 0   Texas - BBBEF                22                80                102
    Kentucky                              76               18                94   Texas - NHCOA               115                12                127
    Louisiana                             54               46               100   Utah                        463                51                514
    Maine                                102               91               193   Vermont                     NA                  0                  0
    Maryland                             240                0               240   Virginia                     41                15                 56
    Massachusetts                        60                73               133   Washington                  240               329                569
    Michigan                             47               186               233   WV - AARP                   NA                  0                  0
    Minnesota                            41                26                67   WV - URC                      7                NA                  7
    Mississippi                          53               212               265   WI - CWAG                    56                15                 71
    Missouri                              7                10                17   WI - GLITC                   NA                 0                  0
    Montana                              53                35               88    Wyoming                      35                 4                 39
    Nebraska                             22                26               48


               PERFORMANCE MEASURE 2                       January - June                July - December                      Total 2003
                               TOTAL                           5,035                           2,511                            7,546
                                                                                                                                                          10

A     P    P   E   N   D     I   X   ~   C

                                         PERFORMANCE MEASURE 3: Number of media events conducted
                           January - June      July – December    Total 2003                         January - June   July - December       Total 2003
    Alabama                             8                 2,642          2,650     Nevada                     4,755              4,150             8,905
    Alaska                                4                  4                8    New Hampshire                 8                 18                26
    Arizona                              32                 38               70    New Jersey                    2                  5                 7
    Arkansas                              1                 10               11    New Mexico                    5                  5                10
    California                           11                  8               19    New York                     15                  9                24
    Colorado                              3                 10               13    NC - DOA                     77                  6                83
    Connecticut                          47                 23               70    NC – DOI                     NA                  0                 0
    Delaware                             56                 18               74    North Dakota                 NA                  1                 1
    DC – AARP                             3                  3                6    Ohio - COAAA                 45                174               219
    DC – FH                              35              3,848           3,883     Ohio - PSI                  862                 60               922
    Florida                              24                 28              52     Oklahoma                      5                  2                 7
    Georgia - ARC                        18                 21              39     Oregon                        3             17,003            17,006
    Georgia - DHR                         65                35               100   Pennsylvania                 13                  6                19
    Hawaii                               135               107               242   Puerto Rico                  19                  3                22
    Idaho                            1,824                  43           1,867     Rhode Island              1,094              3,071             4,165
    Illinois                         2,414               2,446           4,860     South Carolina                0                  4                 4
    Indiana                              7                   6              13     South Dakota                  2                  0                 2
    Iowa                                 216               198               414   Tennessee                    87                 43               130
    Kansas                               NA                  0                 0   Texas - BBBEF                 3                  4                 7
    Kentucky                              65                92               157   Texas - NHCOA                18                  8                26
    Louisiana                            16                  9                25   Utah                         18                  1                19
    Maine                                45                 51                96   Vermont                      NA                  0                 0
    Maryland                             73                 69               142   Virginia                     24                 26                50
    Massachusetts                        45                 28               73    Washington                  146                137               283
    Michigan                              0                  0                0    WV - AARP                   NA                   0                 0
    Minnesota                             0                  0                0    WV - URC                      2                NA                  2
    Mississippi                          10                 10               20    WI - CWAG                 1,552                15              1,567
    Missouri                              6                  3                9    WI - GLITC                  NA                  0                  0
    Montana                              86                173               259   Wyoming                       2                  5                 7
    Nebraska                             26                 26                52


               PERFORMANCE MEASURE 3                        January – June                July - December                      Total 2003
                               TOTAL                           14,032                          34,705                           48,737
                                                                                                                                                           11

A     P    P   E   N   D     I    X   ~   C

                                 PERFORMANCE MEASURE 4: Number of community education events conducted
                           January - June       July – December   Total 2003                         January - June   July - December       Total 2003
    Alabama                            75                   105            180     Nevada                        16                12                 28
    Alaska                                17                 7                24   New Hampshire                48                45                 93
    Arizona                               58               103               161   New Jersey                   10                 9                 19
    Arkansas                              13                10                23   New Mexico                   28                15                 43
    California                            59                36                95   New York                    126                15                141
    Colorado                              90                20               110   NC - DOA                    151                13                164
    Connecticut                           82               112               194   NC – DOI                     NA                 0                  0
    Delaware                              17                38                55   North Dakota                 NA                32                 32
    DC – AARP                              4                 7                11   Ohio - COAAA                 83               201                284
    DC – FH                                9                30                39   Ohio - PSI                    3                 9                 12
    Florida                               47                58               105   Oklahoma                     55                 9                 64
    Georgia - ARC                         49                10                59   Oregon                       31                19                 50
    Georgia - DHR                         837              133               970   Pennsylvania                 20                10                 30
    Hawaii                                  8                6                14   Puerto Rico                  11                36                 47
    Idaho                                 46                40                86   Rhode Island                  5                13                 18
    Illinois                              31                47                78   South Carolina               20                28                 48
    Indiana                               36                90               126   South Dakota                  3                 2                  5
    Iowa                                  82                94               176   Tennessee                    64                52                116
    Kansas                                NA                 0                 0   Texas - BBBEF               101                29                130
    Kentucky                              40                34                74   Texas - NHCOA                38                10                 48
    Louisiana                              12               12                24   Utah                        104                27                131
    Maine                                  70               67               137   Vermont                     NA                  0                  0
    Maryland                              155               51               206   Virginia                     45                64                109
    Massachusetts                     1,674                201           1,875     Washington                   53                62                115
    Michigan                             16                 13              29     WV - AARP                    NA                 0                  0
    Minnesota                             86                83               169   WV - URC                      4                NA                  4
    Mississippi                           84                98               182   WI - CWAG                    11                32                 43
    Missouri                              44                15                59   WI - GLITC                   NA                11                 11
    Montana                               77                40               117   Wyoming                       7                11                 18
    Nebraska                              90                43               133


               PERFORMANCE MEASURE 4                        January – June                July - December                      Total 2003
                               TOTAL                            4,945                           2,369                            7,314
                                                                                                                                                           12

A     P    P   E   N   D     I   X   ~   C

           PERFORMANCE MEASURE 5: Number of volunteers who, for the first time, conducted activities to educate
                                               beneficiaries
                           January - June        July – December   Total 2003                         January - June   July - December       Total 2003
    Alabama                              21                  88               109   Nevada                        5                  3                 8
    Alaska                                0                   0                 0   New Hampshire               170                  9               179
    Arizona                              45                  15               60    New Jersey                   22                12                 34
    Arkansas                              2                   6                8    New Mexico                   20                 8                 28
    California                           19                  52               71    New York                    386               341                727
    Colorado                              10                  5                15   NC - DOA                     45                  2                47
    Connecticut                          299                113               412   NC – DOI                     NA                  0                 0
    Delaware                              15                  2                17   North Dakota                 NA                  0                 0
    DC – AARP                                0                0                0    Ohio - COAAA                 16                15                 31
    DC – FH                                  3                4                7    Ohio - PSI                   15                16                 31
    Florida                                  0               10               10    Oklahoma                      2                 2                  4
    Georgia - ARC                          1                  2                 3   Oregon                       20                38                 58
    Georgia - DHR                        191                 20               211   Pennsylvania                 11                12                 23
    Hawaii                                6                   3                9    Puerto Rico                    8                9                 17
    Idaho                                 4                   9               13    Rhode Island                   0                0                  0
    Illinois                             10                  12               22    South Carolina                 8               10                 18
    Indiana                               1                   6                7    South Dakota                  0                 2                  2
    Iowa                                  0                  41               41    Tennessee                    96                18                114
    Kansas                               NA                   0                0    Texas - BBBEF                24                78                102
    Kentucky                             64                    9              73    Texas - NHCOA                16                 0                 16
    Louisiana                             2                    3               5    Utah                         50                31                 81
    Maine                                45                  55               100   Vermont                     NA                  0                  0
    Maryland                              2                   0                 2   Virginia                      7                 3                 10
    Massachusetts                         8                  17                25   Washington                  240               329                569
    Michigan                              2                  13               15    WV - AARP                    NA                 0                     0
    Minnesota                            29                  19               48    WV - URC                      7                NA                     7
    Mississippi                          12                  46               58    WI - CWAG                     2                 4                     6
    Missouri                              7                  10               17    WI - GLITC                   NA                  0                    0
    Montana                              49                  29               78    Wyoming                       4                  1                    5
    Nebraska                             48                  33               81

               PERFORMANCE MEASURE 5                         January – June                July - December                      Total 2003
                              TOTAL                              2,069                           1,565                            3,634
                                                                                                                                                              13

A     P    P   E   N   D     I   X   ~   C

                       PERFORMANCE MEASURE 6: Number of group sessions for beneficiaries led by volunteers
                           January - June      July – December   Total 2003                         January - June   July - December       Total 2003
    Alabama                            72                  220            292     Nevada                        10                12                 22
    Alaska                               57                20                77   New Hampshire                39                46                 85
    Arizona                              58                96               154   New Jersey                   61                68                129
    Arkansas                               5                8                13   New Mexico                   42                23                 65
    California                           123              244               367   New York                    235                45                280
    Colorado                              28               43                71   NC - DOA                     84                19                103
    Connecticut                           3                17                20   NC – DOI                     NA                 0                  0
    Delaware                             91                73               164   North Dakota                 NA                 0                  0
    DC – AARP                            36                25                61   Ohio - COAAA                 14                54                 68
    DC – FH                               21               16                37   Ohio - PSI                   39                30                 69
    Florida                               80               29               109   Oklahoma                     55                 2                 57
    Georgia - ARC                        107               61               168   Oregon                       20                 8                 28
    Georgia - DHR                    1,006                247           1,253     Pennsylvania                117                78                195
    Hawaii                              55                 20              75     Puerto Rico                  48                31                 79
    Idaho                                112              180               292   Rhode Island                 14                 7                 21
    Illinois                             203              119               322   South Carolina                8                11                 19
    Indiana                                6                7                13   South Dakota                 10                 8                 18
    Iowa                                 365              457               822   Tennessee                   123               140                263
    Kansas                               NA                 0                 0   Texas - BBBEF                55                39                 94
    Kentucky                             194              150               344   Texas - NHCOA                45                34                 79
    Louisiana                              8                2                10   Utah                        124                23                147
    Maine                                 77               70               147   Vermont                     NA                  0                  0
    Maryland                             155              119               274   Virginia                      0                41                 41
    Massachusetts                    1,542                238           1,780     Washington                   78               101                179
    Michigan                            16                  0              16     WV - AARP                    NA                 0                  0
    Minnesota                            83                19               102   WV - URC                      7                NA                  7
    Mississippi                          63               113               176   WI - CWAG                    52                41                 93
    Missouri                             44                15                59   WI - GLITC                   NA                 0                  0
    Montana                              132              112               244   Wyoming                      10                 3                 13
    Nebraska                              43               55                98


               PERFORMANCE MEASURE 6                       January – June                July - December                      Total 2003
                               TOTAL                           6,075                           3,639                            9,714
                                                                                                                                                          14

A     P    P   E   N   D     I   X   ~   C

               PERFORMANCE MEASURE 7: Number of beneficiaries who attended group sessions led by volunteers
                           January - June     July – December    Total 2003                       January - June   July - December       Total 2003
    Alabama                         4,017               11,719        15,736    Nevada                       382               924              1,306
    Alaska                            1,944             1,000           2,944   New Hampshire            11,678             1,125             12,803
    Arizona                           3,173             4,056           7,229   New Jersey                3,747             3,852              7,599
    Arkansas                            160               434            594    New Mexico                  839               999              1,838
    California                       10,010             8,890         18,900    New York                  1,999             1,020              3,019
    Colorado                          1,086             1,290          2,376    NC - DOA                  2,977             1,115              4,092
    Connecticut                         150             1,701           1,851   NC – DOI                    NA                  0                  0
    Delaware                          2,357             1,608           3,965   North Dakota                NA                  0                  0
    DC – AARP                         1,118               675           1,793   Ohio - COAAA                245               738                983
    DC – FH                             380               480             860   Ohio - PSI                  834               716              1,550
    Florida                           2,292               724           3,016   Oklahoma                    755                50                805
    Georgia - ARC                     3,291             1,833           5,124   Oregon                      990               240              1,230
    Georgia - DHR                    26,751             5,998         32,749    Pennsylvania              9,162             2,962             12,124
    Hawaii                            1,300               645          1,945    Puerto Rico               1,063             4,871              5,934
    Idaho                             5,742            12,492         18,234    Rhode Island                382               181                563
    Illinois                         12,225             2,698         14,923    South Carolina              450             2,391              2,841
    Indiana                              81                87            168    South Dakota                351               333                684
    Iowa                              9,188               982         10,170    Tennessee                 4,316             7,075             11,391
    Kansas                              NA                  0              0    Texas - BBBEF             1,331             1,083              2,414
    Kentucky                          5,093             3,927          9,020    Texas - NHCOA               211             1,218              1,429
    Louisiana                           321                31             352   Utah                      2,015               689              2,704
    Maine                             2,451             1,174           3,625   Vermont                     NA                  0                  0
    Maryland                          4,198             3,816           8,014   Virginia                  2,344             3,035              5,379
    Massachusetts                    25,964                 0         25,964    Washington                2,693             4,321              7,014
    Michigan                            539                 0            539    WV - AARP                   NA                  0                  0
    Minnesota                         1,113               888           2,001   WV - URC                     35               NA                  35
    Mississippi                       2,409             1,841           4,250   WI - CWAG                 1,607             6,379              7,986
    Missouri                          2,233               287           2,520   WI - GLITC                  NA                  0                  0
    Montana                           3,993             2,769           6,762   Wyoming                     353                20                373
    Nebraska                          1,142             1,759           2,901


               PERFORMANCE MEASURE 7                       January – June              July - December                      Total 2003
                               TOTAL                          185,480                      119,141                           304,621
                                                                                                                                                        15

A     P    P    E   N   D     I   X   ~   C

               PERFORMANCE MEASURE 8: Number of one -on-one sessions held between beneficiaries and volunteers
                            January - June      July – December    Total 2003                         January - June   July - December       Total 2003
    Alabama                             66                 2,978          3,044     Nevada                        15                12                 27
    Alaska                                71                 35               106   New Hampshire             3,993             3,659              7,652
    Arizona                               21                 23                44   New Jersey                   20               120                140
    Arkansas                               0                  6                 6   New Mexico                2,648            15,311             17,959
    California                            16                  8                24   New York                  1,637             4,135              5,772
    Colorado                              76                 77               153   NC - DOA                    648                 5                653
    Connecticut                            23                33                56   NC – DOI                     NA                 0                  0
    Delaware                                9                40                49   North Dakota                 NA                 0                  0
    DC – AARP                             119                52               171   Ohio - COAAA                 16               113                129
    DC – FH                                47             1,163           1,210     Ohio - PSI                   12                57                 69
    Florida                                 0                99              99     Oklahoma                      3                 2                  5
    Georgia - ARC                         449               205             654     Oregon                    1,285             3,265              4,550
    Georgia - DHR                      2,221                 94           2,315     Pennsylvania                  0                50                 50
    Hawaii                                 0                  0               0     Puerto Rico                 330               270                600
    Idaho                                 314               642               956   Rhode Island                  0                 0                  0
    Illinois                               52                13                65   South Carolina                8                49                 57
    Indiana                                54                28                82   South Dakota                189               199                388
    Iowa                                  55                 27              82     Tennessee                   314                90                404
    Kansas                               NA                   0               0     Texas - BBBEF                26                15                 41
    Kentucky                           1,250              1,008           2,258     Texas - NHCOA               268                43                311
    Louisiana                             78                 27             105     Utah                        853               166              1,019
    Maine                                207                118             325     Vermont                     NA                  0                  0
    Maryland                           1,632              1,483           3,115     Virginia                      0                 0                  0
    Massachusetts                     36,696             14,320         51,016      Washington               25,884            22,169             48,053
    Michigan                              12                 11             23      WV - AARP                   NA                  0                  0
    Minnesota                             10                  9              19     WV - URC                      6                NA                  6
    Mississippi                          907              1,029           1,936     WI - CWAG                    98                69                167
    Missouri                           4,198                 58           4,256     WI - GLITC                   NA                 0                  0
    Montana                               121               182               303   Wyoming                     966               618              1,584
    Nebraska                              156               409               565


               PERFORMANCE MEASURE 8                         January – June                July - December                      Total 2003
                               TOTAL                            88,079                          74,594                           162,673
                                                                                                                                                            16

A     P    P   E   N   D     I   X    ~   C

                            PERFORMANCE MEASURE 9: Estimated number of people reached by media events
                           January - June      July – December   Total 2003                      January - June     July - December   Total 2003
    Alabama                      354,250               175,227       529,477   Nevada                2,371,566              935,500     3,307,066
    Alaska                             8,500            3,500         12,000   New Hampshire             215,295           142,800           358,095
    Arizona                          104,429           79,995        184,424   New Jersey                169,000         1,201,647         1,370,647
    Arkansas                        28,500            220,500        249,000   New Mexico                250,000           348,000          598,000
    California                   2,441,300          2,483,950      4,925,250   New York                   41,275            48,737           90,012
    Colorado                         3,500             75,120         78,620   NC - DOA                  698,625             1,180          699,805
    Connecticut                      515,000          374,015        889,015   NC – DOI                       NA                 0                 0
    Delaware                         600,200        1,030, 650     1,630,850   North Dakota                   NA             7,500             7,500
    DC – AARP                        690,000          690,000      1,380,000   Ohio - COAAA              952,343         1,095,460         2,047,803
    DC – FH                          895,000        2,497,070      3,392,070   Ohio - PSI               1,792,553        1,003,957         2,796,510
    Florida                                0        3,000,860      3,000,860   Oklahoma                    18,500            4,200            22,700
    Georgia - ARC                     74,637           73,859        148,496   Oregon                     151,036          167,000           318,036
    Georgia - DHR                     93,026          412,100        505,126   Pennsylvania         22,063,092              10,000        22,073,092
    Hawaii                           500,000          940,000      1,440,000   Puerto Rico           1,500,000             175,000         1,675,000
    Idaho                             85,000          323,388        408,388   Rhode Island             8,744,000        6,000,000        14,744,000
    Illinois                         147,589          508,800        656,389   South Carolina                   0            1,620             1,620
    Indiana                           19,180           28,438         47,618   South Dakota                 2,000                0             2,000
    Iowa                         3,127,191            312,191      3,439,382   Tennessee                 513,034           357,540           870,574
    Kansas                              NA                  0              0   Texas - BBBEF             132,000           107,000           239,000
    Kentucky                       970,820          1,083,054      2,053,874   Texas - NHCOA             862,730           320,000         1,182,730
    Louisiana                       50,000            250,000        300,000   Utah                         1,400              100             1,500
    Maine                        1,066,454            748,874      1,815,328   Vermont                         NA                0                 0
    Maryland                       919,465            350,845      1,270,310   Virginia                 1,214,490        1,819,000         3,033,490
    Massachusetts                     25,000          140,000        165,000   Washington               3,437,489        4,880,153         8,317,642
    Michigan                               0                0              0   WV - AARP                       NA                0                 0
    Minnesota                              0                0              0   WV - URC                   100,000              NA            100,000
    Mississippi                       31,698           16,694         48,392   WI - CWAG                8,602,192           33,370         8,635,562
    Missouri                          60,000          100,000        160,000   WI - GLITC                      NA                0                 0
    Montana                          158,400          550,408        708,808   Wyoming                   112,000           110,000          222,000
    Nebraska                         555,079          948,403      1,503,482


               PERFORMANCE MEASURE 9                       January – June             July - December                        Total 2003
                               TOTAL                         67,468,838                 36,187,705                          103,656,543
                                                                                                                                                       17

A     P    P    E   N   D     I   X   ~   C

                PERFORMANCE MEASURE 10: Estimated number of people reached by community education events
                            January - June     July – December    Total 2003                      January - June   July - December       Total 2003
    Alabama                        20,780                30,634        51,414   Nevada                     3,325              9,150           12,475
    Alaska                             5,825             3,744          9,569   New Hampshire              1,594            10,800           12,394
    Arizona                            3,813            40,008         43,821   New Jersey                 5,800             5,403           11,203
    Arkansas                           1,400             1,902          3,302   New Mexico                 7,740            11,825           19,565
    California                        11,625             5,436         17,061   New York                 113,560            57,945          171,505
    Colorado                           3,890             1,305          5,195   NC - DOA                  10,929               325           11,254
    Connecticut                        5,058             7,396         12,454   NC – DOI                     NA                  0                0
    Delaware                           1,658             4,070          5,728   North Dakota                 NA              1,050            1,050
    DC – AARP                            850             5,650          6,500   Ohio - COAAA              11,280            62,198           73,478
    DC – FH                           13,500           150,000        163,500   Ohio - PSI                 3,304             4,140            7,444
    Florida                            6,720             8,157         14,877   Oklahoma                   7,993             9,322           17,315
    Georgia - ARC                      1,429               835          2,264   Oregon                     2,913             5,005            7,918
    Georgia - DHR                     77,762            45,946        123,708   Pennsylvania               5,723               409             6,132
    Hawaii                             4,000            27,000         31,000   Puerto Rico                  420               219               639
    Idaho                              3,126             7,860         10,986   Rhode Island              21,700            50,000           71,700
    Illinois                          10,415             4,582         14,997   South Carolina             2,100               435            2,535
    Indiana                            3,826            17,262         21,088   South Dakota                 340               650              990
    Iowa                               9,084           109,517        118,601   Tennessee                  6,924            8,659            15,583
    Kansas                               NA                  0              0   Texas - BBBEF              4,757              568             5,325
    Kentucky                           3,333             2,727          6,060   Texas - NHCOA             26,550          210,000           236,550
    Louisiana                            232               286            518   Utah                       5,591             7,080           12,671
    Maine                             22,726            11,903         34,629   Vermont                       NA                 0                0
    Maryland                           4,198            18,091         22,289   Virginia                 200,000            22,402          222,402
    Massachusetts                     32,751             7,676         40,427   Washington                11,140            12,639           23,779
    Michigan                           1,520             2,853          4,373   WV - AARP                    NA                  0                0
    Minnesota                          1,678             2,098          3,776   WV - URC                     400               NA                400
    Mississippi                       10,592            10,047         20,639   WI - CWAG                  1,122             4,764             5,886
    Missouri                           2,233               287          2,520   WI - GLITC                   NA                281               281
    Montana                            4,256             4,532          8,788   Wyoming                     340              1,221             1,561
    Nebraska                           6,571           164,706        171,277


               PERFORMANCE MEASURE 10                       January – June             July - December                      Total 2003
                               TOTAL                           730,396                    1,193,000                         1,923,396
                                                                                                                                                       18

A     P    P    E   N   D     I   X   ~   C

                        PERFORMANCE MEASURE 11: Number of complaints received attributable to the project
                            January - June     July – December   Total 2003                         January - June   July - December       Total 2003
    Alabama                             52                 255            307     Nevada                        53                25                 78
    Alaska                                 3                0                 3   New Hampshire                13                 7                 20
    Arizona                               54               78               132   New Jersey                   24                30                 54
    Arkansas                               3                9               12    New Mexico                   53                26                 79
    California                            38               27               65    New York                  5,261               839              6,100
    Colorado                              76               15               91    NC - DOA                     48                 0                 48
    Connecticut                           67               12               79    NC – DOI                     NA                 1                  1
    Delaware                              15               18               33    North Dakota                 NA                 1                  1
    DC – AARP                             37               60               97    Ohio - COAAA                  0                 0                  0
    DC – FH                               46               50                96   Ohio - PSI                    7                11                 18
    Florida                               43               95               138   Oklahoma                     65                 6                 71
    Georgia - ARC                         31                7                38   Oregon                        5                 3                  8
    Georgia - DHR                         10                6               16    Pennsylvania                154               100                254
    Hawaii                                21                3               24    Puerto Rico                  24                28                 52
    Idaho                             3,085             2,236           5,321     Rhode Island                  7                 4                 11
    Illinois                             19                 6              25     South Carolina                3                 8                 11
    Indiana                               0                 0               0     South Dakota                  0                 3                  3
    Iowa                                  93               52               145   Tennessee                    14                22                 36
    Kansas                                NA                0                 0   Texas - BBBEF                48                14                 62
    Kentucky                              59              163               222   Texas - NHCOA                94                56                150
    Louisiana                              8               10                18   Utah                         13                35                 48
    Maine                                 40               11                51   Vermont                      NA                 0                  0
    Maryland                              72               67               139   Virginia                     34                30                 64
    Massachusetts                          0               31               31    Washington                   20                12                 32
    Michigan                              12               11               23    WV - AARP                    NA                 0                  0
    Minnesota                              2                0                2    WV - URC                      0                NA                  0
    Mississippi                           32               26               58    WI - CWAG                    41                27                 68
    Missouri                               2                5                7    WI - GLITC                   NA                 5                  5
    Montana                               58               41               99    Wyoming                      13                20                 33
    Nebraska                              11               31               42


               PERFORMANCE MEASURE 11                      January – June                July - December                      Total 2003
                               TOTAL                           9,983                           4,638                           14,621
                                                                                                                                                          19

A     P    P    E   N   D     I   X   ~   C

                                  PERFORMANCE MEASURE 12: Number of complaints referred for follow-up
                            January - June        July – December   Total 2003                        January - June   July - December       Total 2003
    Alabama                             34                     38             72    Nevada                         4                11                 15
    Alaska                                    0                0               0    New Hampshire                 8                 0                  8
    Arizona                                   3                4               7    New Jersey                    0                 0                  0
    Arkansas                               0                   5                5   New Mexico                   53                26                 79
    California                            13                   8               21   New York                      4               271                275
    Colorado                               2                   3                5   NC - DOA                     11                 0                 11
    Connecticut                               1                4                5   NC – DOI                     NA                 1                  1
    Delaware                                  6                8               14   North Dakota                 NA                 1                  1
    DC – AARP                                 1                4                5   Ohio - COAAA                  0                 0                  0
    DC – FH                                   0                0               0    Ohio - PSI                    2                 1                  3
    Florida                                   2                3               5    Oklahoma                      0                 3                  3
    Georgia - ARC                             5                2               7    Oregon                        0                 2                  2
    Georgia - DHR                             3                1               4    Pennsylvania                  6                 5                 11
    Hawaii                                    7                0               7    Puerto Rico                  13                21                 34
    Idaho                             1,501                  670           2,171    Rhode Island                  1                 3                  4
    Illinois                             12                    4              16    South Carolina                3                 2                  5
    Indiana                               0                    0               0    South Dakota                  0                 0                  0
    Iowa                                  12                  11               23   Tennessee                     5                 4                  9
    Kansas                                NA                   0                0   Texas - BBBEF                24                 0                 24
    Kentucky                               0                   0                0   Texas - NHCOA                31                15                 46
    Louisiana                                 3                3               6    Utah                          0                10                 10
    Maine                                     2                4               6    Vermont                      NA                 0                  0
    Maryland                                  0                2               2    Virginia                     11                11                 22
    Massachusetts                             0                3               3    Washington                    6                 3                  9
    Michigan                                  3                5               8    WV - AARP                    NA                 0                  0
    Minnesota                                 0                0                0   WV - URC                      0                NA                  0
    Mississippi                               8                8               16   WI - CWAG                     8                 9                 17
    Missouri                                  2                5                7   WI - GLITC                   NA                 0                  0
    Montana                               32                   0               32   Wyoming                       0                 0                  0
    Nebraska                               7                  11               18


               PERFORMANCE MEASURE 12                         January – June               July - December                      Total 2003
                               TOTAL                              1,849                          1,205                            3,054
                                                                                                                                                            20

A     P    P    E   N   D     I   X   ~   C

                              PERFORMANCE MEASURE 13: Number of complaints that resulted in some action
                            January - June        July – December   Total 2003                         January - June   July - December       Total 2003
    Alabama                              0                      8                8   Nevada                         0                 0                    0
    Alaska                                    0                0                 0   New Hampshire                 3                 0                     3
    Arizona                                   0                0                 0   New Jersey                    0                 0                     0
    Arkansas                                  0                0                0    New Mexico                   16                14                 30
    California                                9                4               13    New York                     19                71                 90
    Colorado                                  0                0                0    NC - DOA                      0                 0                  0
    Connecticut                               1                0                 1   NC – DOI                     NA                 0                     0
    Delaware                                  0                0                 0   North Dakota                 NA                 0                     0
    DC – AARP                                 1                0                 1   Ohio - COAAA                  0                 0                     0
    DC – FH                                   0                0                 0   Ohio - PSI                    0                 2                     2
    Florida                                   0                0                 0   Oklahoma                      0                 2                     2
    Georgia - ARC                             0                0                 0   Oregon                        0                 0                     0
    Georgia - DHR                             1                2                 3   Pennsylvania                  0                 1                  1
    Hawaii                                    0                1                 1   Puerto Rico                   9                 1                 10
    Idaho                                 756                480           1,236     Rhode Island                  0                 0                     0
    Illinois                                2                  0               2     South Carolina                0                 0                     0
    Indiana                                 0                  0               0     South Dakota                  0                 3                     3
    Iowa                                   3                   2                 5   Tennessee                     3                 8                 11
    Kansas                                NA                   0                 0   Texas - BBBEF                 5                 7                 12
    Kentucky                               0                   0                 0   Texas - NHCOA                 3                 0                  3
    Louisiana                                 2                1                 3   Utah                          0                10                 10
    Maine                                     2                2                 4   Vermont                      NA                 0                  0
    Maryland                                  0                0                 0   Virginia                      1                 0                  1
    Massachusetts                             0                0                 0   Washington                    4                 3                     7
    Michigan                                  0                0                 0   WV - AARP                    NA                 0                     0
    Minnesota                              1                   0                1    WV - URC                      0                NA                     0
    Mississippi                           15                  10               25    WI - CWAG                     5                 2                     7
    Missouri                               1                   1                2    WI - GLITC                   NA                 0                     0
    Montana                               12                   0               12    Wyoming                       0                 0                     0
    Nebraska                               4                   3                7


               PERFORMANCE MEASURE 13                         January – June                July - December                      Total 2003
                               TOTAL                               878                             638                             1,516
                                                                                                                                                               21

A     P    P    E   N   D     I   X    ~   C

                             PERFORMANCE MEASURE 14: Medicare funds recovered attributable to the project
                            January - June      July – December   Total 2003                        January - June   July - December       Total 2003
    Alabama                             $0                   $0             $0    Nevada                        $0                $0                 $0
    Alaska                                 $0               $0               $0   New Hampshire                $0                $0                 $0
    Arizona                                $0               $0               $0   New Jersey                   $0                $0                 $0
    Arkansas                               $0               $0             $0     New Mexico                    $0               $0                 $0
    California                        $16,039               $0        $16,039     New York                  $6,902           $1,696             $8,598
    Colorado                               $0               $0             $0     NC - DOA                      $0               $0                 $0
    Connecticut                        $1,339               $0         $1,339     NC – DOI                     NA                $0                 $0
    Delaware                               $0               $0             $0     North Dakota                 NA                $0                 $0
    DC – AARP                              $0               $0             $0     Ohio - COAAA                 $0                $0                 $0
    DC – FH                                $0               $0               $0   Ohio - PSI                    $0             $264              $264
    Florida                                $0               $0               $0   Oklahoma                   $461                $0              $461
    Georgia - ARC                          $0               $0               $0   Oregon                    $1,230               $0             $1,230
    Georgia - DHR                          $0               $0               $0   Pennsylvania                  $0             $161              $161
    Hawaii                                 $0               $0               $0   Puerto Rico               $1,046              $55             $1,101
    Idaho                                  $0               $0               $0   Rhode Island                 $0                $0                 $0
    Illinois                               $0               $0               $0   South Carolina               $0                $0                 $0
    Indiana                                $0               $0               $0   South Dakota                 $0                $0                 $0
    Iowa                                   $0               $0               $0   Tennessee                     $0               $0                 $0
    Kansas                                 NA               $0               $0   Texas - BBBEF            $20,323          $64,978            $85,301
    Kentucky                               $0               $0               $0   Texas - NHCOA            $13,491               $0            $13,491
    Louisiana                              $0          $83,787        $83,787     Utah                         $0                $0                 $0
    Maine                                  $0               $0             $0     Vermont                     NA                 $0                 $0
    Maryland                               $0               $0             $0     Virginia                   $592                $0               $592
    Massachusetts                          $0               $0               $0   Washington                   $0                $0                 $0
    Michigan                               $0               $0               $0   WV - AARP                    NA                $0                 $0
    Minnesota                              $0               $0             $0     WV - URC                     $0               NA                  $0
    Mississippi                         $127              $490          $617      WI - CWAG                    $0               $20                $20
    Missouri                          $10,700               $0        $10,700     WI - GLITC                   NA                $0                 $0
    Montana                                $0               $0               $0   Wyoming                      $0                $0                 $0
    Nebraska                               $0               $0               $0


               PERFORMANCE MEASURE 14                       January - June               July - December                      Total 2003
                               TOTAL                           72,250                        151,450                           223,700
                                                                                                                                                          22

A     P    P    E   N    D     I   X    ~    C

                        PERFORMANCE MEASURE 15: Total Medicaid funds, beneficiary savings and other savings
                             January - June        July – December   Total 2003                         January - June   July - December   Total 2003
    Alabama                              $0                     $0             $0     Nevada                        $0                $0             $0
    Alaska                                    $0               $0               $0    New Hampshire            $30,645               $0        $30,645
    Arizona                                   $0               $0               $0    New Jersey                    $0               $0             $0
    Arkansas                                  $0               $0             $0      New Mexico              $88,334          $143,020      $231,354
    California                              $682               $0           $682      New York            $20,900,000                $0    $20,900,000
    Colorado                                  $0               $0             $0      NC - DOA                     $0                $0             $0
    Connecticut                               $0               $0               $0    NC – DOI                     NA                $0             $0
    Delaware                                  $0               $0               $0    North Dakota                 NA                $0             $0
    DC – AARP                                 $0               $0               $0    Ohio - COAAA                 $0                $0             $0
    DC – FH                                 $0                 $0             $0      Ohio - PSI                   $0                $0             $0
    Florida                            $55,261            $19,345        $74,606      Oklahoma                     $0                $0             $0
    Georgia - ARC                           $0                 $0             $0      Oregon                       $0                $0             $0
    Georgia - DHR                             $0               $0                $0   Pennsylvania                 $0                $0             $0
    Hawaii                                    $0              $73               $73   Puerto Rico                  $0                $0             $0
    Idaho                          $234,338               $91,232       $325,570      Rhode Island                 $0                $0             $0
    Illinois                             $0                    $0             $0      South Carolina               $0                $0             $0
    Indiana                              $0                    $0             $0      South Dakota                 $0                $0             $0
    Iowa                                     $0             $210           $210       Tennessee                 $5,176           $1,969         $7,145
    Kansas                                   NA                $0             $0      Texas - BBBEF                 $0               $0             $0
    Kentucky                                 $0            $1,815         $1,815      Texas - NHCOA             $1,447               $0         $1,447
    Louisiana                                 $0               $0               $0    Utah                         $0                $0             $0
    Maine                                     $0               $0               $0    Vermont                      NA                $0             $0
    Maryland                                  $0               $0               $0    Virginia                     $0                $0             $0
    Massachusetts                             $0               $0               $0    Washington                   $0                $0             $0
    Michigan                                  $0               $0               $0    WV - AARP                    NA                $0             $0
    Minnesota                            $0                    $0             $0      WV - URC                     $0                NA             $0
    Mississippi                          $9                $2,436         $2,445      WI - CWAG                    $0                $0             $0
    Missouri                       $416,396                    $0       $416,396      WI - GLITC                   NA                $0             $0
    Montana                                   $0               $0               $0    Wyoming                      $0                $0             $0
    Nebraska                                  $0               $0               $0


               PERFORMANCE MEASURE 15                          January - June                July - December                      Total 2003
                               TOTAL                            $21,732,288                     $260,100                         $21,992,388
                                                                                                                                                          23

�   A P P E N D I X              ~     D 





                                         Individual Project Results for 2003

This Appendix includes a table of the performance data for each of the 59 Senior Medicare Patrol Projects that operated in 2003. Each
table provides the performance measure results for the two 6- month reporting periods.




                                                                                                                                  24

 A   P    P   E   N   D   I   X    ~   D




                                              Alabama - Alabama Commission on Aging, Montgomery
                                                                                      Total for     January through    July through    Change in Last 6
                                  PERFORMANCE MEASURES                                 2003            June 2003      December 2003        Months
                                       OUTPUT MEASURES
          1   Number of training sessions conducted to train new volunteers                    33                15               18                   3
          2   Number of new volunteers trained                                                171                60              111                  51
          3   Number of media events conducted                                              2,650                 8            2,642               2,634
          4   Number of community education events conducted                                  180                75              105                  30
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                          109                 21               88                 67
          6   Number of group sessions for beneficiaries led by volunteers                   292                 72              220                148
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                  15,736              4,017           11,719               7,702
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                   3,044                 66            2,978              2,912
     7+8      Total number of beneficiaries educated                                      18,780              4,083           14,697             10,614
          9   Estimated number of people reached by media events                         529,477            354,250          175,227            -179,023
         10   Estimated number of people reached by community education
              events                                                                      51,414             20,780           30,634               9,854
         11   Number of complaints received attributable to the project                      307                 52              255                 203
         12   Number of complaints referred for follow-up                                     72                 34               38                   4
      13      Number of complaints that resulted in some action                                8                  0                8                   8
      14      Medicare funds recovered attributable to the project                            $0                 $0               $0                  $0
     15A      Medicaid funds recovered attributable to the project                            $0                NA                $0                 NA
     15B      Savings to beneficiaries attributable to the project                            $0                NA                $0                 NA
     15C      Other savings attributable to the project                                       $0                NA                $0                 NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings                    $0                 $0               $0                  $0
  14 + 15     Total savings attributable to the project                                       $0                 $0               $0                  $0




                                                                                                                                                  25

   A   P    P   E   N   D   I   X   ~   D




                                            Alaska - Alaska State Division of Senior Services, Anchorage
                                                                                    Total for        January through    July through    Change in Last 6
                                PERFORMANCE MEASURES                                 2003               June 2003      December 2003        Months
                                    OUTPUT MEASURES
        1   Number of training sessions conducted to train new volunteers                        5                 5               0                   -5
        2   Number of new volunteers trained                                                     8                 8               0                   -8
        3   Number of media events conducted                                                     8                 4               4                    0
        4   Number of community education events conducted                                      24                17               7                  -10
                                  OUTCOME MEASURES
        5   Number of volunteers who, for the first time, conducted activities to
            educate beneficiaries                                                                0                 0               0                    0
        6   Number of group sessions for beneficiaries led by volunteers                        77                57              20                  -37
        7   Number of beneficiaries who attended group sessions led by
            volunteers                                                                    2,944                1,944            1,000                -944
        8   Number of one-on-one sessions held between beneficiaries and
            volunteers                                                                      106                   71               35                  -36
    7+8     Total number of beneficiaries educated                                        3,050                2,015            1,035                -980
        9   Estimated number of people reached by media events                          12,000                 8,500            3,500              -5,000
       10   Estimated number of people reached by community education
            events                                                                        9,569                5,825            3,744              -2,081
       11   Number of complaints received attributable to the project                         3                    3                0                  -3
       12   Number of complaints referred for follow-up                                       0                    0                0                   0
       13   Number of complaints that resulted in some action                                 0                    0                0                   0
      14    Medicare funds recovered attributable to the project                             $0                   $0               $0                  $0
    15A     Medicaid funds recovered attributable to the project                             $0                  NA                $0                 NA
    15B     Savings to beneficiaries attributable to the project                             $0                  NA                $0                 NA
    15C     Other savings attributable to the project                                        $0                  NA                $0                 NA
TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                     $0                   $0               $0                  $0
  14 + 15   Total savings attributable to the project                                        $0                   $0               $0                  $0




                                                                                                                                                   26

      A       P     P   E   N   D   I   X    ~   D




                                                 Arizona - Arizona Department of Economic Security, Phoenix
                                                                                          Total for     January through    July through    Change in Last 6
                                    PERFORMANCE MEASURES                                   2003            June 2003      December 2003        Months
                                            OUTPUT MEASURES
          1       Number of training sessions conducted to train new volunteers                   48                 35               13                 -22
          2       Number of new volunteers trained                                                90                 75               15                 -60
          3       Number of media events conducted                                                70                 32               38                   6
          4       Number of community education events conducted                                 161                 58              103                  45
                                        OUTCOME MEASURES
          5       Number of volunteers who, for the first time, conducted activities to
                  educate beneficiaries                                                           60                 45              15                  -30
          6       Number of group sessions for beneficiaries led by volunteers                   154                 58              96                   38
          7       Number of beneficiaries who attended group sessions led by
                  volunteers                                                                    7,229             3,173            4,056                883
          8       Number of one-on-one sessions held between beneficiaries and
                  volunteers                                                                       44                21               23                  2
    7+8           Total number of beneficiaries educated                                        7,273             3,194            4,079                885
       9          Estimated number of people reached by media events                         184,424            104,429           79,995             -24,434
      10          Estimated number of people reached by community education
                  events                                                                      43,821              3,813           40,008             36,195
      11          Number of complaints received attributable to the project                      132                 54               78                 24
      12          Number of complaints referred for follow-up                                      7                  3                4                  1
      13          Number of complaints that resulted in some action                                0                  0                0                  0
      14          Medicare funds recovered attributable to the project                            $0                 $0               $0                  0
    15A           Medicaid funds recovered attributable to the project                            $0                NA                $0                NA
    15B           Savings to beneficiaries attributable to the project                            $0                NA                $0                NA
    15C           Other savings attributable to the project                                       $0                NA                $0                NA
TOTAL 15          Total Medicaid funds, beneficiary savings, and other savings                    $0                 $0               $0                 $0
  14 + 15         Total savings attributable to the project                                       $0                 $0               $0                 $0




                                                                                                                                                      27

  A    P       P     E   N   D   I   X   ~    D




                                         Arkansas - Arkansas Division of Aging and Adult Services, Little Rock
                                                                                           Total for        January through    July through    Change in Last 6
                                     PERFORMANCE MEASURES                                   2003               June 2003      December 2003        Months
                                             OUTPUT MEASURES
           1       Number of training sessions conducted to train new volunteers                        6                 1               5                      4
           2       Number of new volunteers trained                                                    31                 7              24                     17
           3       Number of media events conducted                                                    11                 1              10                      9
           4       Number of community education events conducted                                      23                13              10                     -3
                                         OUTCOME MEASURES
           5       Number of volunteers who, for the first time, conducted activities to
                   educate beneficiaries                                                                8                 2               6                     4
           6       Number of group sessions for beneficiaries led by volunteers                        13                 5               8                     3
           7       Number of beneficiaries who attended group sessions led by
                   volunteers                                                                     594                   160              434                274
           8       Number of one-on-one sessions held between beneficiaries and
                   volunteers                                                                       6                     0                6                  6
      7+8          Total number of beneficiaries educated                                         600                   160              440                280
        9          Estimated number of people reached by media events                         249,000                28,500          220,500            192,000
       10          Estimated number of people reached by community education
                   events                                                                        3,302                1,400            1,902                502
       11          Number of complaints received attributable to the project                        12                    3                9                  6
       12          Number of complaints referred for follow-up                                       5                    0                5                  5
       13          Number of complaints that resulted in some action                                 0                    0                0                  0
      14           Medicare funds recovered attributable to the project                              0                   $0               $0                 $0
    15A            Medicaid funds recovered attributable to the project                             $0                  NA                $0                NA
    15B            Savings to beneficiaries attributable to the project                             $0                  NA                $0                NA
    15C            Other savings attributable to the project                                        $0                  NA                $0                NA
TOTAL 15           Total Medicaid funds, beneficiary savings, and other savings                     $0                   $0               $0                 $0
  14 + 15          Total savings attributable to the project                                        $0                   $0               $0                 $0




                                                                                                                                                          28

  A    P       P     E   N   D   I   X   ~    D




                     California - California Health Insurance Counseling Advocacy Programs Association, Sacramento
                                                                                           Total for    January through    July through     Change in Last 6
                                     PERFORMANCE MEASURES                                   2003           June 2003      December 2003         Months
                                             OUTPUT MEASURES
           1       Number of training sessions conducted to train new volunteers                   10                 4                6                    2
           2       Number of new volunteers trained                                               156                83               73                  -10
           3       Number of media events conducted                                                19                11                8                   -3
           4       Number of community education events conducted                                  95                59               36                  -23
                                         OUTCOME MEASURES
           5       Number of volunteers who, for the first time, conducted activities to
                   educate beneficiaries                                                           71                19               52                   33
           6       Number of group sessions for beneficiaries led by volunteers                   367               123              244                  121
           7       Number of beneficiaries who attended group sessions led by
                   volunteers                                                                  18,900            10,010             8,890              -1,120
           8       Number of one-on-one sessions held between beneficiaries and
                   volunteers                                                                      24                16                 8                  -8
      7+8          Total number of beneficiaries educated                                      18,924            10,026             8,898              -1,128
        9          Estimated number of people reached by media events                       4,925,250         2,441,300         2,483,950              42,650
       10          Estimated number of people reached by community education
                   events                                                                      17,061            11,625             5,436              -6,189
       11          Number of complaints received attributable to the project                       65                38                27                  -11
       12          Number of complaints referred for follow-up                                     21                13                 8                   -5
       13          Number of complaints that resulted in some action                               13                 9                 4                   -5
      14           Medicare funds recovered attributable to the project                        16,039           $16,039                $0            -$16,039
    15A            Medicaid funds recovered attributable to the project                            $0                NA                $0                  NA
    15B            Savings to beneficiaries attributable to the project                            $0                NA                $0                  NA
    15C            Other savings attributable to the project                                       $0                NA                $0                  NA
TOTAL 15           Total Medicaid funds, beneficiary savings, and other savings                 $682              $682                 $0               -$682
  14 + 15          Total savings attributable to the project                                  $16,721           $16,721                $0            -$16,721




                                                                                                                                                       29

 A   P    P   E   N   D   I   X    ~   D




                                                   Colorado - Colorado Division of Insurance, Denver
                                                                                      Total for        January through    July through    Change in Last 6
                                  PERFORMANCE MEASURES                                 2003               June 2003      December 2003        Months
                                       OUTPUT MEASURES
          1   Number of training sessions conducted to train new volunteers                    9                     7               2                    -5
          2   Number of new volunteers trained                                               142                   122              20                 -102
          3   Number of media events conducted                                                13                     3              10                     7
          4   Number of community education events conducted                                 110                    90              20                   -70
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                               15                10               5                     -5
          6   Number of group sessions for beneficiaries led by volunteers                        71                28              43                     15
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                    2,376                1,086            1,290                204
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                      153                   76               77                  1
     7+8      Total number of beneficiaries educated                                        2,529                1,162            1,367                205
          9   Estimated number of people reached by media events                          78,620                 3,500           75,120             71,620
         10   Estimated number of people reached by community education
              events                                                                        5,195                3,890            1,305              -2,585
         11   Number of complaints received attributable to the project                        91                   76               15                 -61
         12   Number of complaints referred for follow-up                                       5                    2                3                   1
         13   Number of complaints that resulted in some action                                 0                    0                0                   0
      14      Medicare funds recovered attributable to the project                             $0                   $0               $0                  $0
    15A       Medicaid funds recovered attributable to the project                             $0                  NA                $0                 NA
    15B       Savings to beneficiaries attributable to the project                             $0                  NA                $0                 NA
    15C       Other savings attributable to the project                                        $0                  NA                $0                 NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings                     $0                   $0               $0                  $0
  14 + 15     Total savings attributable to the project                                        $0                   $0               $0                  $0




                                                                                                                                                     30

  A    P       P     E   N   D   I   X   ~    D




                                             Connecticut - Connecticut Department of Social Services, Hartford
                                                                                           Total for     January through    July through    Change in Last 6
                                     PERFORMANCE MEASURES                                   2003            June 2003      December 2003        Months
                                             OUTPUT MEASURES
           1       Number of training sessions conducted to train new volunteers                   26                 10               16                   6
           2       Number of new volunteers trained                                               543                299              244                 -55
           3       Number of media events conducted                                                70                 47               23                 -24
           4       Number of community education events conducted                                 194                 82              112                  30
                                         OUTCOME MEASURES
           5       Number of volunteers who, for the first time, conducted activities to
                   educate beneficiaries                                                          412                299              113                -186
           6       Number of group sessions for beneficiaries led by volunteers                    20                  3               17                  14
           7       Number of beneficiaries who attended group sessions led by
                   volunteers                                                                    1,851               150            1,701               1,551
           8       Number of one-on-one sessions held between beneficiaries and
                   volunteers                                                                       56                23               33                  10
      7+8          Total number of beneficiaries educated                                        1,907               173            1,734               1,561
        9          Estimated number of people reached by media events                         889,015            515,000          374,015            -140,985
       10          Estimated number of people reached by community education
                   events                                                                      12,454              5,058            7,396               2,338
       11          Number of complaints received attributable to the project                       79                 67               12                  -55
       12          Number of complaints referred for follow-up                                      5                  1                4                    3
       13          Number of complaints that resulted in some action                                1                  1                0                   -1
      14           Medicare funds recovered attributable to the project                         1,339             $1,339               $0             -$1,339
    15A            Medicaid funds recovered attributable to the project                            $0                NA                $0                  NA
    15B            Savings to beneficiaries attributable to the project                            $0                NA                $0                  NA
    15C            Other savings attributable to the project                                       $0                NA                $0                  NA
TOTAL 15           Total Medicaid funds, beneficiary savings, and other savings                    $0                 $0               $0                   $0
  14 + 15          Total savings attributable to the project                                   $1,339             $1,339               $0             -$1,339




                                                                                                                                                       31

  A    P       P     E   N   D   I   X   ~    D




                                      Delaware - Delaware Department of Health and Social Services, New Castle
                                                                                           Total for        January through    July through     Change in Last 6
                                     PERFORMANCE MEASURES                                   2003               June 2003      December 2003         Months
                                             OUTPUT MEASURES
           1       Number of training sessions conducted to train new volunteers                       19                16                3                  -13
           2       Number of new volunteers trained                                                    84                82                2                  -80
           3       Number of media events conducted                                                    74                56               18                  -38
           4       Number of community education events conducted                                      55                17               38                   21
                                         OUTCOME MEASURES
           5       Number of volunteers who, for the first time, conducted activities to
                   educate beneficiaries                                                           17                    15                2                  -13
           6       Number of group sessions for beneficiaries led by volunteers                   164                    91               73                  -18
           7       Number of beneficiaries who attended group sessions led by
                   volunteers                                                                    3,965                2,357             1,608                -749
           8       Number of one-on-one sessions held between beneficiaries and
                   volunteers                                                                       49                    9                40                  31
      7+8          Total number of beneficiaries educated                                        4,014                2,366             1,648                -718
        9          Estimated number of people reached by media events                       1,630,850               600,200         1,030,650            430,450
       10          Estimated number of people reached by community education
                   events                                                                        5,728                1,658             4,070               2,412
       11          Number of complaints received attributable to the project                        33                   15                18                   3
       12          Number of complaints referred for follow-up                                      14                    6                 8                   2
       13          Number of complaints that resulted in some action                                 0                    0                 0                   0
      14           Medicare funds recovered attributable to the project                             $0                   $0                $0                  $0
    15A            Medicaid funds recovered attributable to the project                             $0                  NA                 $0                 NA
    15B            Savings to beneficiaries attributable to the project                             $0                  NA                 $0                 NA
    15C            Other savings attributable to the project                                        $0                  NA                 $0                 NA
TOTAL 15           Total Medicaid funds, beneficiary savings, and other savings                     $0                   $0                $0                  $0
  14 + 15          Total savings attributable to the project                                        $0                   $0                $0                  $0




                                                                                                                                                           32

  A    P       P     E   N   D   I   X   ~    D




                                                  District of Columbia - The AARP Foundation, Washington, DC
                                                                                           Total for        January through    July through    Change in Last 6
                                     PERFORMANCE MEASURES                                   2003               June 2003      December 2003        Months
                                             OUTPUT MEASURES
           1       Number of training sessions conducted to train new volunteers                        0                 0               0                     0
           2       Number of new volunteers trained                                                     0                 0               0                     0
           3       Number of media events conducted                                                     6                 3               3                     0
           4       Number of community education events conducted                                      11                 4               7                     3
                                         OUTCOME MEASURES
           5       Number of volunteers who, for the first time, conducted activities to
                   educate beneficiaries                                                                0                 0               0                    0
           6       Number of group sessions for beneficiaries led by volunteers                        61                36              25                  -11
           7       Number of beneficiaries who attended group sessions led by
                   volunteers                                                                    1,793                1,118              675                -443
           8       Number of one-on-one sessions held between beneficiaries and
                   volunteers                                                                      171                  119               52                  -67
      7+8          Total number of beneficiaries educated                                        1,964                1,237              727                -510
        9          Estimated number of people reached by media events                       1,380,000               690,000          690,000                    0
       10          Estimated number of people reached by community education
                   events                                                                        6,500                  850            5,650               4,800
       11          Number of complaints received attributable to the project                        97                   37               60                  23
       12          Number of complaints referred for follow-up                                       5                    1                4                   3
       13          Number of complaints that resulted in some action                                 1                    1                0                  -1
      14           Medicare funds recovered attributable to the project                             $0                   $0               $0                  $0
    15A            Medicaid funds recovered attributable to the project                             $0                  NA                $0                 NA
    15B            Savings to beneficiaries attributable to the project                             $0                  NA                $0                 NA
    15C            Other savings attributable to the project                                        $0                  NA                $0                 NA
TOTAL 15           Total Medicaid funds, beneficiary savings, and other savings                     $0                   $0               $0                  $0
  14 + 15          Total savings attributable to the project                                        $0                   $0               $0                  $0




                                                                                                                                                          33

    A    P   P   E   N    D   I    X   ~   D




                                               District of Columbia - Friendship House, Washington, DC
                                                                                     Total for        January through    July through     Change in Last 6
                                  PERFORMANCE MEASURES                                2003               June 2003      December 2003         Months
                                       OUTPUT MEASURES
         1   Number of training sessions conducted to train new volunteers                     9                    4                 5                   1
         2   Number of new volunteers trained                                                 27                   23                 4                 -19
         3   Number of media events conducted                                              3,883                   35             3,848               3,813
         4   Number of community education events conducted                                   39                    9                30                  21
                                   OUTCOME MEASURES
         5   Number of volunteers who, for the first time, conducted activities to
             educate beneficiaries                                                                7                 3                4                      1
         6   Number of group sessions for beneficiaries led by volunteers                        37                21               16                     -5
         7   Number of beneficiaries who attended group sessions led by
             volunteers                                                                     860                   380              480                 100
         8   Number of one-on-one sessions held between beneficiaries and
             volunteers                                                                    1,210                   47             1,163               1,116
    7+8      Total number of beneficiaries educated                                        2,070                  427             1,643               1,216
         9   Estimated number of people reached by media events                       3,392,070               895,000         2,497,070           1,602,070
        10   Estimated number of people reached by community education
             events                                                                     163,500                13,500          150,000             136,500
        11   Number of complaints received attributable to the project                       96                    46               50                   4
        12   Number of complaints referred for follow-up                                      0                     0                0                   0
        13   Number of complaints that resulted in some action                                0                     0                0                   0
      14     Medicare funds recovered attributable to the project                            $0                    $0               $0                  $0
    15A      Medicaid funds recovered attributable to the project                            $0                   NA                $0                  NA
    15B      Savings to beneficiaries attributable to the project                            $0                   NA                $0                  NA
    15C      Other savings attributable to the project                                       $0                   NA                $0                  NA
TOTAL 15     Total Medicaid funds, beneficiary savings, and other savings                    $0                    $0               $0                  $0
  14 + 15    Total savings attributable to the project                                       $0                    $0               $0                  $0




                                                                                                                                                     34

    A    P   P   E   N    D   I    X   ~   D




                                           Florida - Tampa Bay Regional Planning Council, St. Petersburg
                                                                                     Total for     January through    July through     Change in Last 6
                                  PERFORMANCE MEASURES                                2003            June 2003      December 2003         Months
                                       OUTPUT MEASURES
         1   Number of training sessions conducted to train new volunteers                   14                  7                7                    0
         2   Number of new volunteers trained                                               134                 78               56                  -22
         3   Number of media events conducted                                                52                 24               28                    4
         4   Number of community education events conducted                                 105                 47               58                   11
                                   OUTCOME MEASURES
         5   Number of volunteers who, for the first time, conducted activities to
             educate beneficiaries                                                           10                  0               10                   10
         6   Number of group sessions for beneficiaries led by volunteers                   109                 80               29                  -51
         7   Number of beneficiaries who attended group sessions led by
             volunteers                                                                    3,016             2,292              724               -1,568
         8   Number of one-on-one sessions held between beneficiaries and
             volunteers                                                                       99                 0               99                   99
    7+8      Total number of beneficiaries educated                                        3,115             2,292              823               -1,469
         9   Estimated number of people reached by media events                       3,000,860                  0         3,000,860           3,000,860
        10   Estimated number of people reached by community education
             events                                                                      14,877              6,720            8,157                1,437
        11   Number of complaints received attributable to the project                      138                 43               95                   52
        12   Number of complaints referred for follow-up                                      5                  2                3                    1
        13   Number of complaints that resulted in some action                                0                  0                0                    0
      14     Medicare funds recovered attributable to the project                            $0                 $0               $0                   $0
    15A      Medicaid funds recovered attributable to the project                            $0                 NA               $0                  NA
    15B      Savings to beneficiaries attributable to the project                       $19,345                 NA          $19,345                  NA
    15C      Other savings attributable to the project                                       $0                 NA               $0                  NA
TOTAL 15     Total Medicaid funds, beneficiary savings, and other savings               $74,606            $55,261          $19,345             -$35,916
  14 + 15    Total savings attributable to the project                                  $74,606            $55,261          $19,345             -$35,916




                                                                                                                                                  35

 A   P    P   E   N   D   I   X    ~   D




                                                     Georgia - Atlanta Regional Commission, Atlanta
                                                                                      Total for        January through    July through    Change in Last 6
                                  PERFORMANCE MEASURES                                 2003               June 2003      December 2003        Months
                                       OUTPUT MEAS URES
          1   Number of training sessions conducted to train new volunteers                        5                 2               3                    1
          2   Number of new volunteers trained                                                     2                 0               2                    2
          3   Number of media events conducted                                                    39                18              21                    3
          4   Number of community education events conducted                                      59                49              10                  -39
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                            3                     1               2                    1
          6   Number of group sessions for beneficiaries led by volunteers                   168                   107              61                  -46
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                    5,124                3,291            1,833              -1,458
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                      654                  449              205                -244
     7+8      Total number of beneficiaries educated                                        5,778                3,740            2,038              -1,702
          9   Estimated number of people reached by media events                         148,496                74,637           73,859                -778
         10   Estimated number of people reached by community education
              events                                                                        2,264                1,429              835                -594
         11   Number of complaints received attributable to the project                        38                   31                7                  -24
         12   Number of complaints referred for follow-up                                       7                    5                2                   -3
         13   Number of complaints that resulted in some action                                 0                    0                0                    0
      14      Medicare funds recovered attributable to the project                             $0                   $0               $0                   $0
    15A       Medicaid funds recovered attributable to the project                             $0                  NA                $0                  NA
    15B       Savings to beneficiaries attributable to the project                             $0                  NA                $0                  NA
    15C       Other savings attributable to the project                                        $0                  NA                $0                  NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings                     $0                   $0               $0                   $0
  14 + 15     Total savings attributable to the project                                        $0                   $0               $0                   $0




                                                                                                                                                     36

  A    P       P     E   N   D   I   X   ~    D




                                                        Georgia - Department of Human Resources, Atlanta
                                                                                           Total for     January through    July through    Change in Last 6
                                     PERFORMANCE MEASURES                                   2003            June 2003      December 2003        Months
                                             OUTPUT MEASURES
           1       Number of training sessions conducted to train new volunteers                   74                 49               25                  -24
           2       Number of new volunteers trained                                               371                287               84                -203
           3       Number of media events conducted                                               100                 65               35                  -30
           4       Number of community education events conducted                                 970                837              133                -704
                                         OUTCOME MEASURES
           5       Number of volunteers who, for the first time, conducted activities to
                   educate beneficiaries                                                           211               191               20                -171
           6       Number of group sessions for beneficiaries led by volunteers                  1,253             1,006              247                -759
           7       Number of beneficiaries who attended group sessions led by
                   volunteers                                                                  32,749             26,751            5,998             -20,753
           8       Number of one-on-one sessions held between beneficiaries and
                   volunteers                                                                   2,315              2,221               94              -2,127
      7+8          Total number of beneficiaries educated                                      35,064             28,972            6,092             -22,880
        9          Estimated number of people reached by media events                         505,126             93,026          412,100            319,074
       10          Estimated number of people reached by community education
                   events                                                                     123,708             77,762           45,946             -31,816
       11          Number of complaints received attributable to the project                       16                 10                6                   -4
       12          Number of complaints referred for follow-up                                      4                  3                1                   -2
       13          Number of complaints that resulted in some action                                3                  1                2                    1
      14           Medicare funds recovered attributable to the project                            $0                 $0               $0                  $0
    15A            Medicaid funds recovered attributable to the project                            $0                NA                $0                  NA
    15B            Savings to beneficiaries attributable to the project                            $0                NA                $0                  NA
    15C            Other savings attributable to the project                                       $0                NA                $0                  NA
TOTAL 15           Total Medicaid funds, beneficiary savings, and other savings                    $0                 $0               $0                  $0
  14 + 15          Total savings attributable to the project                                       $0                 $0               $0                  $0




                                                                                                                                                       37

    A    P   P   E   N    D   I    X   ~   D




                                                 Hawaii - Hawaii Executive Office of Aging, Honolulu
                                                                                     Total for        January through    July through    Change in Last 6
                                  PERFORMANCE MEASURES                                2003               June 2003      December 2003        Months
                                       OUTPUT MEASURES
         1   Number of training sessions conducted to train new volunteers                   10                     6                4                  -2
         2   Number of new volunteers trained                                                30                    24                6                 -18
         3   Number of media events conducted                                               242                   135              107                 -28
         4   Number of community education events conducted                                  14                     8                6                  -2
                                   OUTCOME MEASURES
         5   Number of volunteers who, for the first time, conducted activities to
             educate beneficiaries                                                                9                 6               3                   -3
         6   Number of group sessions for beneficiaries led by volunteers                        75                55              20                  -35
         7   Number of beneficiaries who attended group sessions led by
             volunteers                                                                    1,945                1,300              645                -655
         8   Number of one-on-one sessions held between beneficiaries and
             volunteers                                                                        0                    0                0                   0
    7+8      Total number of beneficiaries educated                                        1,945                1,300              645                -655
         9   Estimated number of people reached by media events                       1,440,000               500,000          940,000            440,000
        10   Estimated number of people reached by community education
             events                                                                      31,000                 4,000           27,000             23,000
        11   Number of complaints received attributable to the project                       24                    21                3                -18
        12   Number of complaints referred for follow-up                                      7                     7                0                 -7
        13   Number of complaints that resulted in some action                                1                     0                1                  1
      14     Medicare funds recovered attributable to the project                            $0                    $0               $0                 $0
    15A      Medicaid funds recovered attributable to the project                            $0                   NA                $0                NA
    15B      Savings to beneficiaries attributable to the project                           $73                   NA               $73                NA
    15C      Other savings attributable to the project                                       $0                   NA                $0                NA
TOTAL 15     Total Medicaid funds, beneficiary savings, and other savings                   $73                    $0              $73                $73
  14 + 15    Total savings attributable to the project                                      $73                    $0              $73                $73




                                                                                                                                                    38

 A   P    P   E   N   D   I   X    ~   D




                                                    Idaho - Idaho Medicare Watch Partnership, Boise
                                                                                      Total for     January through    July through    Change in Last 6
                                  PERFORMANCE MEASURES                                 2003            June 2003      December 2003        Months
                                       OUTPUT MEASURES
          1   Number of training sessions conducted to train new volunteers                    61                47              14                   -33
          2   Number of new volunteers trained                                                221               212               9                 -203
          3   Number of media events conducted                                              1,867             1,824              43               -1,781
          4   Number of community education events conducted                                   86                46              40                    -6
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                           13                  4                9                     5
          6   Number of group sessions for beneficiaries led by volunteers                   292                112              180                    68
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                  18,234              5,742           12,492               6,750
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                     956                314              642                 328
     7+8      Total number of beneficiaries educated                                      19,190              6,056           13,134               7,078
          9   Estimated number of people reached by media events                         408,388             85,000          323,388            238,388
         10   Estimated number of people reached by community education
              events                                                                      10,986              3,126            7,860               4,734
         11   Number of complaints received attributable to the project                    5,321              3,085            2,236                -849
         12   Number of complaints referred for follow-up                                  2,171              1,501              670                -831
         13   Number of complaints that resulted in some action                            1,236                756              480                -276
      14      Medicare funds recovered attributable to the project                            $0                 $0               $0                  $0
    15A       Medicaid funds recovered attributable to the project                            $0                NA                $0                  NA
    15B       Savings to beneficiaries attributable to the project                       $91,232                NA           $91,232                  NA
    15C       Other savings attributable to the project                                       $0                NA                $0                  NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings              $325,570           $234,338          $91,232           -$143,106
  14 + 15     Total savings attributable to the project                                 $325,570           $234,338          $91,232           -$143,106




                                                                                                                                                  39

    A    P   P   E   N    D   I    X   ~   D




                                                 Illinois - Suburban Area Agency on Aging, Oak Park
                                                                                     Total for     January through    July through    Change in Last 6
                                  PERFORMANCE MEASURES                                2003            June 2003      December 2003        Months
                                       OUTPUT MEASURES
         1   Number of training s essions conducted to train new volunteers                    9                 3                6                     3
         2   Number of new volunteers trained                                                 43                14               29                    15
         3   Number of media events conducted                                              4,860             2,414            2,446                    32
         4   Number of community education events conducted                                   78                31               47                    16
                                   OUTCOME MEASURES
         5   Number of volunteers who, for the first time, conducted activities to
             educate beneficiaries                                                           22                 10               12                   2
         6   Number of group sessions for beneficiaries led by volunteers                   322                203              119                 -84
         7   Number of beneficiaries who attended group sessions led by
             volunteers                                                                  14,923             12,225            2,698              -9,527
         8   Number of one-on-one sessions held between beneficiaries and
             volunteers                                                                      65                 52               13                 -39
    7+8      Total number of beneficiaries educated                                      14,988             12,277            2,711              -9,566
         9   Estimated number of people reached by media events                         656,389            147,589          508,800            361,211
        10   Estimated number of people reached by community education
             events                                                                      14,997             10,415            4,582              -5,833
        11   Number of complaints received attributable to the project                       25                 19                6                 -13
        12   Number of complaints referred for follow-up                                     16                 12                4                  -8
        13   Number of complaints that resulted in some action                                2                  2                0                  -2
      14     Medicare funds recovered attributable to the project                            $0                 $0               $0                  $0
    15A      Medicaid funds recovered attributable to the project                            $0                NA                $0                 NA
    15B      Savings to beneficiaries attributable to the project                            $0                NA                $0                 NA
    15C      Other savings attributable to the project                                       $0                NA                $0                 NA
TOTAL 15     Total Medicaid funds, beneficiary savings, and other savings                    $0                 $0               $0                  $0
  14 + 15    Total savings attributable to the project                                       $0                 $0               $0                  $0




                                                                                                                                                 40

    A    P   P   E   N    D   I    X   ~   D




                              Indiana - Indiana Division of Disability, Aging and Rehabilitation, Indianapolis
                                                                                     Total for        January through    July through    Change in Last 6
                                  PERFORMANCE MEASURES                                2003               June 2003      December 2003        Months
                                       OUTPUT MEASURES
         1   Number of training sessions conducted to train new volunteers                   10                     4               6                      2
         2   Num ber of new volunteers trained                                              179                    92              87                     -5
         3   Number of media events conducted                                                13                     7               6                     -1
         4   Number of community education events conducted                                 126                    36              90                     54
                                   OUTCOME MEASURES
         5   Number of volunteers who, for the first time, conducted activities to
             educate beneficiaries                                                                7                 1               6                     5
         6   Number of group sessions for beneficiaries led by volunteers                        13                 6               7                     1
         7   Number of beneficiaries who attended group sessions led by
             volunteers                                                                     168                    81              87                     6
         8   Number of one-on-one sessions held between beneficiaries and
             volunteers                                                                      82                    54               28                 -26
    7+8      Total number of beneficiaries educated                                         250                   135              115                 -20
         9   Estimated number of people reached by media events                          47,618                19,180           28,438               9,258
        10   Estimated number of people reached by community education
             events                                                                      21,088                 3,826           17,262             13,436
        11   Number of complaints received attributable to the project                        0                     0                0                  0
        12   Number of complaints referred for follow-up                                      0                     0                0                  0
        13   Number of complaints that resulted in some action                                0                     0                0                  0
      14     Medicare funds recovered attributable to the project                            $0                    $0               $0                 $0
    15A      Medicaid funds recovered attributable to the project                            $0                   NA                $0                 NA
    15B      Savings to beneficiaries attributable to the project                            $0                   NA                $0                 NA
    15C      Other savings attributable to the project                                       $0                   NA                $0                 NA
TOTAL 15     Total Medicaid funds, beneficiary savings, and other savings                    $0                    $0               $0                 $0
  14 + 15    Total savings attributable to the project                                       $0                    $0               $0                 $0




                                                                                                                                                    41

  A    P       P     E   N   D   I   X   ~    D




                                                         Iowa - Iowa Department of Elder Affairs, Waterloo
                                                                                           Total for    January through    July through    Change in Last 6
                                     PERFORMANCE MEASURES                                   2003           June 2003      December 2003        Months
                                             OUTPUT MEASURES
           1       Number of training sessions conducted to train new volunteers                  107                65               42                  -23
           2       Number of new volunteers trained                                               374               320               54                -266
           3       Number of media events conducted                                               414               216              198                  -18
           4       Number of community education events conducted                                 176                82               94                   12
                                         OUTCOME MEASURES
           5       Number of volunteers who, for the first time, conducted activities to
                   educate beneficiaries                                                           41                 0               41                    41
           6       Number of group sessions for beneficiaries led by volunteers                   822               365              457                    92
           7       Number of beneficiaries who attended group sessions led by
                   volunteers                                                                  10,170             9,188              982              -8,206
           8       Number of one-on-one sessions held between beneficiaries and
                   volunteers                                                                      82                55               27                 -28
      7+8          Total number of beneficiaries educated                                      10,252             9,243            1,009              -8,234
        9          Estimated number of people reached by media events                       3,439,382         3,127,191          312,191          -2,815,000
       10          Estimated number of people reached by community education
                   events                                                                     118,601             9,084          109,517            100,433
       11          Number of complaints received attributable to the project                      145                93               52                 -41
       12          Number of complaints referred for follow-up                                     23                12               11                  -1
       13          Number of complaints that resulted in some action                                5                 3                2                  -1
      14           Medicare funds recovered attributable to the project                            $0                $0               $0                  $0
    15A            Medicaid funds recovered attributable to the project                            $0               NA                $0                 NA
    15B            Savings to beneficiaries attributable to the project                         $210                NA             $210                  NA
    15C            Other savings attributable to the project                                       $0               NA                $0                 NA
TOTAL 15           Total Medicaid funds, beneficiary savings, and other savings                 $210                 $0            $210               $210
  14 + 15          Total savings attributable to the project                                    $210                 $0            $210               $210




                                                                                                                                                      42

  A    P       P     E   N   D   I   X   ~    D




                                                               Kansas - Via Christi Foundation, Inc., Wichita
                                                                                           Total for        January through    July through   Change in Last 6
                                     PERFORMANCE MEASURES                                   2003               June 2003      December 2003       Months
                                             OUTPUT MEASURES
           1       Number of training sessions conducted to train new volunteers                       0                NA                0                 NA
           2       Number of new volunteers trained                                                    0                NA                0                 NA
           3       Number of media events conducted                                                    0                NA                0                 NA
           4       Number of community education events conducted                                      0                NA                0                 NA
                                         OUTCOME MEASURES
           5       Number of volunteers who, for the first time, conducted activities to
                   educate beneficiaries                                                               0                NA                0                 NA
           6       Number of group sessions for beneficiaries led by volunteers                        0                NA                0                 NA
           7       Number of beneficiaries who attended group sessions led by
                   volunteers                                                                          0                NA                0                 NA
           8       Number of one-on-one sessions held between beneficiaries and
                   volunteers                                                                          0                NA                0                 NA
      7+8          Total number of beneficiaries educated                                              0                NA                0                 NA
        9          Estimated number of people reached by media events                                  0                NA                0                 NA
       10          Estimated number of people reached by community education
                   events                                                                               0               NA                0                 NA
       11          Number of complaints received attributable to the project                            0               NA                0                 NA
       12          Number of complaints referred for follow-up                                          0               NA                0                 NA
       13          Number of complaints that resulted in some action                                    0               NA                0                 NA
      14           Medicare funds recovered attributable to the project                                $0               NA               $0                 NA
    15A            Medicaid funds recovered attributable to the project                                $0               NA               $0                 NA
    15B            Savings to beneficiaries attributable to the project                                $0               NA               $0                 NA
    15C            Other savings attributable to the project                                           $0               NA               $0                 NA
TOTAL 15           Total Medicaid funds, beneficiary savings, and other savings                        $0               NA               $0                 NA
  14 + 15          Total savings attributable to the project                                           $0               NA               $0                 NA




                                                                                                                                                         43

 A   P    P   E   N   D   I   X    ~   D




                              Kentucky - Kentucky Association of Senior Service Corps Programs, Louisville
                                                                                      Total for     January through    July through     Change in Last 6
                                  PERFORMANCE MEASURES                                 2003            June 2003      December 2003         Months
                                       OUTPUT MEASURES
          1   Number of training sessions conducted to train new volunteers                   10                  5                5                    0
          2   Number of new volunteers trained                                                94                 76               18                  -58
          3   Number of media events conducted                                               157                 65               92                   27
          4   Number of community education events conducted                                  74                 40               34                   -6
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                           73                 64                9                  -55
          6   Number of group sessions for beneficiaries led by volunteers                   344                194              150                  -44
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                    9,020             5,093             3,927              -1,166
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                   2,258              1,250             1,008                -242
     7+8      Total number of beneficiaries educated                                      11,278              6,343             4,935              -1,408
          9   Estimated number of people reached by media events                       2,053,874            970,820         1,083,054            112,234
         10   Estimated number of people reached by community education
              events                                                                       6,060              3,333            2,727                -606
         11   Number of complaints received attributable to the project                      222                 59              163                 104
         12   Number of complaints referred for follow-up                                      0                  0                0                   0
         13   Number of complaints that resulted in some action                                0                  0                0                   0
      14      Medicare funds recovered attributable to the project                            $0                 $0               $0                  $0
    15A       Medicaid funds recovered attributable to the project                            $0                NA                $0                  NA
    15B       Savings to beneficiaries attributable to the project                        $1,815                NA            $1,815                  NA
    15C       Other savings attributable to the project                                       $0                NA                $0                  NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings                $1,815                 $0           $1,815              $1,815
  14 + 15     Total savings attributable to the project                                   $1,815                 $0           $1,815              $1,815




                                                                                                                                                   44

    A    P   P   E   N    D   I    X   ~   D




                                               Louisiana - Vernon Parish Council on Aging, Inc., Leesville
                                                                                     Total for        January through    July through    Change in Last 6
                                  PERFORMANCE MEASURES                                2003               June 2003      December 2003        Months
                                       OUTPUT MEASURES
         1   Number of training sessions conducted to train new volunteers                    5                     3               2                     -1
         2   Number of new volunteers trained                                               100                    54              46                     -8
         3   Number of media events conducted                                                25                    16               9                     -7
         4   Number of community education events conducted                                  24                    12              12                      0
                                   OUTCOME MEASURES
         5   Number of volunteers who, for the first time, conducted activities to
             educate beneficiaries                                                                5                 2               3                      1
         6   Number of group sessions for beneficiaries led by volunteers                        10                 8               2                     -6
         7   Number of beneficiaries who attended group sessions led by
             volunteers                                                                     352                   321              31                 -290
         8   Number of one-on-one sessions held between beneficiaries and
             volunteers                                                                     105                    78              27                   -51
    7+8      Total number of beneficiaries educated                                         457                   399              58                 -341
         9   Estimated number of people reached by media events                         300,000                50,000          250,000            200,000
        10   Estimated number of people reached by community education
             events                                                                         518                   232              286                 54
        11   Number of complaints received attributable to the project                       18                     8               10                   2
        12   Number of complaints referred for follow-up                                      6                     3                3                   0
        13   Number of complaints that res ulted in some action                               3                     2                1                  -1
      14     Medicare funds recovered attributable to the project                       $83,787                    $0          $83,787            $83,787
    15A      Medicaid funds recovered attributable to the project                            $0                   NA                $0                 NA
    15B      Savings to beneficiaries attributable to the project                            $0                   NA                $0                 NA
    15C      Other savings attributable to the project                                       $0                   NA                $0                 NA
TOTAL 15     Total Medicaid funds, beneficiary savings, and other savings                    $0                    $0               $0                 $0
  14 + 15    Total savings attributable to the project                                  $83,787                    $0          $83,787            $83,787




                                                                                                                                                    45

  A    P       P     E   N   D   I   X   ~    D




                         Maine - Maine Department of Human Services' Bureau of Elder and Adult Services, Augusta
                                                                                           Total for     January through    July through    Change in Last 6
                                     PERFORMANCE MEASURES                                   2003            June 2003      December 2003        Months
                                             OUTPUT MEASURES
           1       Number of training sessions conducted to train new volunteers                   47                 31              16                  -15
           2       Number of new volunteers trained                                               193                102              91                  -11
           3       Number of media events conducted                                                96                 45              51                    6
           4       Number of community education events conducted                                 137                 70              67                   -3
                                         OUTCOME MEASURES
           5       Number of volunteers who, for the first time, conducted activities to
                   educate beneficiaries                                                          100                 45              55                     10
           6       Number of group sessions for beneficiaries led by volunteers                   147                 77              70                     -7
           7       Number of beneficiaries who attended group sessions led by
                   volunteers                                                                    3,625             2,451            1,174              -1,277
           8       Number of one-on-one s essions held between beneficiaries and
                   volunteers                                                                      325               207              118                 -89
      7+8          Total number of beneficiaries educated                                        3,950             2,658            1,292              -1,366
        9          Estimated number of people reached by media events                       1,815,328          1,066,454          748,874            -317,580
       10          Estimated number of people reached by community education
                   events                                                                      34,629             22,726           11,903             -10,823
       11          Number of complaints received attributable to the project                       51                 40               11                  -29
       12          Number of complaints referred for follow-up                                      6                  2                4                    2
       13          Number of complaints that resulted in some action                                4                  2                2                    0
      14           Medicare funds recovered attributable to the project                            $0                 $0               $0                   $0
    15A            Medicaid funds recovered attributable to the project                            $0                NA                $0                  NA
    15B            Savings to beneficiaries attributable to the project                            $0                NA                $0                  NA
    15C            Other savings attributable to the project                                       $0                NA                $0                  NA
TOTAL 15           Total Medicaid funds, beneficiary savings, and other savings                    $0                 $0               $0                   $0
  14 + 15          Total savings attributable to the project                                       $0                 $0               $0                   $0




                                                                                                                                                       46

  A    P       P     E   N   D   I   X   ~    D




                                                           Maryland - Maryland Office on Aging, Baltimore
                                                                                           Total for     January through    July through    Change in Last 6
                                     PERFORMANCE MEASURES                                   2003            June 2003      December 2003        Months
                                             OUTPUT MEASURES
           1       Number of training sessions conducted to train new volunteers                   43                 18              25                    7
           2       Number of new volunteers trained                                               240                240               0                 -240
           3       Number of media events conducted                                               142                 73              69                   -4
           4       Number of community education events conducted                                 206                155              51                 -104
                                         OUTCOME MEASURES
           5       Number of volunteers who, for the first time, conducted activities to
                   educate beneficiaries                                                            2                  2                0                  -2
           6       Number of group sessions for beneficiaries led by volunteers                   274                155              119                 -36
           7       Number of beneficiaries who attended group sessions led by
                   volunteers                                                                    8,014             4,198            3,816                -382
           8       Number of one-on-one sessions held between beneficiaries and
                   volunteers                                                                   3,115              1,632            1,483                -149
      7+8          Total number of beneficiaries educated                                      11,129              5,830            5,299                -531
        9          Estimated number of people reached by media events                       1,270,310            919,465          350,845            -568,620
       10          Estimated number of people reached by community education
                   events                                                                      22,289              4,198           18,091             13,893
       11          Number of complaints received attributable to the project                      139                 72               67                 -5
       12          Number of complaints referred for follow-up                                      2                  0                2                  2
       13          Number of complaints that resulted in some action                                0                  0                0                  0
      14           Medicare funds recovered attributable to the project                            $0                 $0               $0                 $0
    15A            Medicaid funds recovered attributable to the project                            $0                NA                $0                NA
    15B            Savings to beneficiaries attributable to the project                            $0                NA                $0                NA
    15C            Other savings attributable to the project                                       $0                NA                $0                NA
TOTAL 15           Total Medicaid funds, beneficiary savings, and other savings                    $0                 $0               $0                 $0
  14 + 15          Total savings attributable to the project                                       $0                 $0               $0                 $0




                                                                                                                                                       47

  A    P       P     E   N   D   I   X   ~    D




                                                    Massachusetts - Elder Services of Merrimack, Lawrence
                                                                                           Total for     January through    July through    Change in Last 6
                                     PERFORMANCE MEASURES                                   2003            June 2003      December 2003        Months
                                             OUTPUT MEASURES
           1       Number of training sessions conducted to train new volunteers                   151               143                8                -135
           2       Number of new volunteers trained                                                133                60               73                   13
           3       Number of media events conducted                                                 73                45               28                  -17
           4       Number of community education events conducted                                1,875             1,674              201              -1,473
                                         OUTCOME MEASURES
           5       Number of volunteers who, for the first time, conducted activities to
                   educate beneficiaries                                                            25                 8               17                   9
           6       Number of group sessions for beneficiaries led by volunteers                  1,780             1,542              238              -1,304
           7       Number of beneficiaries who attended group sessions led by
                   volunteers                                                                  25,964             25,964               0              -25,964
           8       Number of one-on-one sessions held between beneficiaries and
                   volunteers                                                                  51,016             36,696           14,320             -22,376
      7+8          Total number of beneficiaries educated                                      76,980             62,660           14,320             -48,340
        9          Estimated number of people reached by media events                         165,000             25,000          140,000            115,000
       10          Estimated number of people reached by community education
                   events                                                                      40,427             32,751            7,676             -25,075
       11          Number of complaints received attributable to the project                       31                  0               31                  31
       12          Number of complaints referred for follow-up                                      3                  0                3                   3
       13          Number of complaints that resulted in some action                                0                  0                0                   0
      14           Medicare funds recovered attributable to the project                            $0                 $0               $0                  $0
    15A            Medicaid funds recovered attributable to the project                            $0                NA                $0                  NA
    15B            Savings to beneficiaries attributable to the project                            $0                NA                $0                  NA
    15C            Other savings attributable to the project                                       $0                NA                $0                  NA
TOTAL 15           Total Medicaid funds, beneficiary savings, and other savings                    $0                 $0               $0                  $0
  14 + 15          Total savings attributable to the project                                       $0                 $0               $0                  $0




                                                                                                                                                       48

  A    P       P     E   N   D   I   X   ~    D




                                          Michigan - Area Agencies on Aging Association of Michigan, Lansing
                                                                                           Total for        January through    July through    Change in Last 6
                                     PERFORMANCE MEASURES                                   2003               June 2003      December 2003        Months
                                             OUTPUT MEASURES
           1       Number of training sessions conducted to train new volunteers                   15                     2               13                 11
           2       Number of new volunteers trained                                               233                    47              186                139
           3       Number of media events conducted                                                 0                     0                0                  0
           4       Number of community education events conducted                                  29                    16               13                 -3
                                         OUTCOME MEASURES
           5       Number of volunteers who, for the first time, conducted activities to
                   educate beneficiaries                                                               15                 2              13                   11
           6       Number of group sessions for beneficiaries led by volunteers                        16                16               0                  -16
           7       Number of beneficiaries who attended group sessions led by
                   volunteers                                                                     539                   539               0                 -539
           8       Number of one-on-one sessions held between beneficiaries and
                   volunteers                                                                      23                    12              11                   -1
      7+8          Total number of beneficiaries educated                                         562                   551              11                 -540
        9          Estimated number of people reached by media events                                  0                  0               0                     0
       10          Estimated number of people reached by community education
                   events                                                                        4,373                1,520            2,853               1,333
       11          Number of complaints received attributable to the project                        23                   12               11                  -1
       12          Number of complaints referred for follow-up                                       8                    3                5                   2
       13          Number of complaints that resulted in some action                                 0                    0                0                   0
      14           Medicare funds recovered attributable to the project                             $0                   $0               $0                  $0
    15A            Medicaid funds recovered attributable to the project                             $0                  NA                $0                 NA
    15B            Savings to beneficiaries attributable to the project                             $0                  NA                $0                 NA
    15C            Other savings attributable to the project                                        $0                  NA                $0                 NA
TOTAL 15           Total Medicaid funds, beneficiary savings, and other savings                     $0                   $0               $0                  $0
  14 + 15          Total savings attributable to the project                                        $0                   $0               $0                  $0




                                                                                                                                                          49

    A    P   P   E   N    D   I    X   ~   D




                                                     Minnesota - Minnesota Board of Aging, St. Paul
                                                                                     Total for       January through    July through    Change in Last 6
                                  PERFORMANCE MEASURES                                2003              June 2003      December 2003        Months
                                       OUTPUT MEASURES
         1   Number of training sessions conducted to train new volunteers                   13                    8               5                   -3
         2   Number of new volunteers trained                                                67                   41              26                  -15
         3   Number of media events conducted                                                 0                    0               0                    0
         4   Number of community education events conducted                                 169                   86              83                   -3
                                   OUTCOME MEASURES
         5   Number of volunteers who, for the first time, conducted activities to
             educate beneficiaries                                                           48                   29              19                  -10
         6   Number of group sessions for beneficiaries led by volunteers                   102                   83              19                  -64
         7   Number of beneficiaries who attended group sessions led by
             volunteers                                                                    2,001               1,113              888                -225
         8   Number of one-on-one sessions held between beneficiaries and
             volunteers                                                                       19                  10                9                  -1
    7+8      Total number of beneficiaries educated                                        2,020               1,123              897                -226
         9   Estimated number of people reached by media events                                  0                 0               0                     0
        10   Estimated number of people reached by community education
             events                                                                        3,776               1,678            2,098                420
        11   Number of complaints received attributable to the project                         2                   2                0                 -2
        12   Number of complaints referred for follow-up                                       0                   0                0                  0
        13   Number of complaints that resulted in some action                                 1                   1                0                 -1
      14     Medicare funds recovered attributable to the project                             $0                  $0               $0                 $0
    15A      Medicaid funds recovered attributable to the project                             $0                 NA                $0                NA
    15B      Savings to beneficiaries attributable to the project                             $0                 NA                $0                NA
    15C      Other savings attributable to the project                                        $0                 NA                $0                NA
TOTAL 15     Total Medicaid funds, beneficiary savings, and other savings                     $0                  $0               $0                 $0
  14 + 15    Total savings attributable to the project                                        $0                  $0               $0                 $0




                                                                                                                                                   50

  A    P       P     E   N   D   I   X   ~    D




                                              Mississippi - Mississippi Department of Human Services, Jackson
                                                                                           Total for     January through    July through    Change in Last 6
                                     PERFORMANCE MEASURES                                   2003            June 2003      December 2003        Months
                                             OUTPUT MEASURES
           1       Number of training sessions conducted to train new volunteers                   51                 32               19                -13
           2       Number of new volunteers trained                                               265                 53              212                159
           3       Number of media events conducted                                                20                 10               10                  0
           4       Number of community education events conducted                                 182                 84               98                 14
                                         OUTCOME MEASURES
           5       Number of volunteers who, for the first time, conducted activities to
                   educate beneficiaries                                                           58                 12               46                    34
           6       Number of group sessions for beneficiaries led by volunteers                   176                 63              113                    50
           7       Number of beneficiaries who attended group sessions led by
                   volunteers                                                                    4,250             2,409            1,841                -568
           8       Number of one-on-one sessions held between beneficiaries and
                   volunteers                                                                    1,936               907            1,029                 122
      7+8          Total number of beneficiaries educated                                        6,186             3,316            2,870                -446
        9          Estimated number of people reached by media events                          48,392             31,698           16,694             -15,004
       10          Estimated number of people reached by community education
                   events                                                                      20,639             10,592           10,047               -545
       11          Number of complaints received attributable to the project                       58                 32               26                  -6
       12          Number of complaints referred for follow-up                                     16                  8                8                   0
       13          Number of complaints that resulted in some action                               25                 15               10                  -5
      14           Medicare funds recovered attributable to the project                         $617               $127             $490               $363
    15A            Medicaid funds recovered attributable to the project                            $0                NA                $0                 NA
    15B            Savings to beneficiaries attributable to the project                        $2,436                NA            $2,436                 NA
    15C            Other savings attributable to the project                                       $0                NA                $0                 NA
TOTAL 15           Total Medicaid funds, beneficiary savings, and other savings                $2,445                 $9           $2,436             $2,427
  14 + 15          Total savings attributable to the project                                   $3,062              $136            $2,926             $2,790




                                                                                                                                                       51

 A   P    P   E   N   D I    X    ~   D




                                              Missouri - District III Area Agency on Aging, Warrensburg
                                                                                      Total for        January through    July through    Change in Last 6
                                 PERFORMANCE MEASURES                                  2003               June 2003      December 2003        Months
                                      OUTPUT MEASURES
          1   Number of training sessions conducted to train new volunteers                        2                 1               1                    0
          2   Number of new volunteers trained                                                    17                 7              10                    3
          3   Number of media events conducted                                                     9                 6               3                   -3
          4   Number of community education events conducted                                      59                44              15                  -29
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                               17                 7              10                    3
          6   Number of group sessions for beneficiaries led by volunteers                        59                44              15                  -29
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                    2,520                2,233              287              -1,946
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                    4,256                4,198               58              -4,140
     7+8      Total number of beneficiaries educated                                        6,776                6,431              345              -6,086
          9   Estimated number of people reached by media events                         160,000                60,000          100,000             40,000
         10   Estimated number of people reached by community education
              events                                                                       2,520                 2,233              287              -1,946
         11   Number of complaints received attributable to the project                        7                     2                5                   3
         12   Number of complaints referred for follow-up                                      7                     2                5                   3
         13   Number of complaints that resulted in some action                                2                     1                1                   0
      14      Medicare funds recovered attributable to the project                       $10,700               $10,700               $0            -$10,700
    15A       Medicaid funds recovered attributable to the project                            $0                    NA               $0                  NA
    15B       Savings to beneficiaries attributable to the project                            $0                    NA               $0                  NA
    15C       Other savings attributable to the project                                       $0                    NA               $0                  NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings              $416,396              $416,396               $0           -$416,396
  14 + 15     Total savings attributable to the project                                 $427,096              $427,096               $0           -$427,096




                                                                                                                                                     52

 A   P    P   E   N   D   I   X    ~   D




                                                          Montana - Missoula Aging Services, Missoula
                                                                                      Total for     January through    July through    Change in Last 6
                                  PERFORMANCE MEASURES                                 2003            June 2003      December 2003        Months
                                       OUTPUT MEASURES
          1   Number of training sessions conducted to train new volunteers                   19                 12                7                  -5
          2   Number of new volunteers trained                                                88                 53               35                 -18
          3   Number of media events conducted                                               259                 86              173                  87
          4   Number of community education events conducted                                 117                 77               40                 -37
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                           78                 49               29                 -20
          6   Number of group sessions for beneficiaries led by volunteers                   244                132              112                 -20
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                    6,762             3,993            2,769              -1,224
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                      303               121              182                  61
     7+8      Total number of beneficiaries educated                                        7,065             4,114            2,951              -1,163
          9   Estimated number of people reached by media events                         708,808            158,400          550,408            392,008
         10   Estimated number of people reached by community education
              events                                                                        8,788             4,256            4,532                276
         11   Number of complaints received attributable to the project                        99                58               41                -17
         12   Number of complaints referred for follow-up                                      32                32                0                -32
         13   Number of complaints that resulted in some action                                12                12                0                -12
      14      Medicare funds recovered attributable to the project                             $0                $0               $0                 $0
    15A       Medicaid funds recovered attributable to the project                             $0               NA                $0                NA
    15B       Savings to beneficiaries attributable to the project                             $0               NA                $0                NA
    15C       Other savings attributable to the project                                        $0               NA                $0                NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings                     $0                $0               $0                 $0
  14 + 15     Total savings attributable to the project                                        $0                $0               $0                 $0




                                                                                                                                                  53

  A    P       P     E   N   D   I   X   ~    D




                                         Nebraska - Nebraska Department of Health and Human Services, Lincoln
                                                                                           Total for        January through    July through    Change in Last 6
                                     PERFORMANCE MEASURES                                   2003               June 2003      December 2003        Months
                                             OUTPUT MEASURES
           1       Number of training sessions conducted to train new volunteers                    9                     5               4                   -1
           2       Number of new volunteers trained                                                48                    22              26                    4
           3       Number of media events conducted                                                52                    26              26                    0
           4       Number of community education events conducted                                 133                    90              43                  -47
                                         OUTCOME MEASURES
           5       Number of volunteers who, for the first time, conducted activities to
                   educate beneficiaries                                                               81                48              33                  -15
           6       Number of group sessions for beneficiaries led by volunteers                        98                43              55                   12
           7       Number of beneficiaries who attended group sessions led by
                   volunteers                                                                    2,901                1,142            1,759                617
           8       Number of one-on-one sessions held between beneficiaries and
                   volunteers                                                                      565                  156              409                253
      7+8          Total number of beneficiaries educated                                        3,466                1,298            2,168                870
        9          Estimated number of people reached by media events                       1,503,482               555,079          948,403            393,324
       10          Estimated number of people reached by community education
                   events                                                                     171,277                 6,571          164,706            158,135
       11          Number of complaints received attributable to the project                       42                    11               31                 20
       12          Number of complaints referred for follow-up                                     18                     7               11                   4
       13          Number of complaints that resulted in some action                                7                     4                3                  -1
      14           Medicare funds recovered attributable to the project                            $0                    $0               $0                 $0
    15A            Medicaid funds recovered attributable to the project                            $0                   NA                $0                 NA
    15B            Savings to beneficiaries attributable to the project                            $0                   NA                $0                 NA
    15C            Other savings attributable to the project                                       $0                   NA                $0                 NA
TOTAL 15           Total Medicaid funds, beneficiary savings, and other savings                    $0                    $0               $0                 $0
  14 + 15          Total savings attributable to the project                                       $0                    $0               $0                 $0




                                                                                                                                                          54

  A    P       P     E   N   D   I   X   ~    D




                                                    Nevada - Nevada Division of Aging Services, Las Vegas
                                                                                           Total for        January through    July through    Change in Last 6
                                     PERFORMANCE MEASURES                                   2003               June 2003      December 2003        Months
                                             OUTPUT MEASURES
           1       Number of training sessions conducted to train new volunteers                    14                   10                4                   -6
           2       Number of new volunteers trained                                                 36                   31                5                  -26
           3       Number of media events conducted                                              8,905                4,755            4,150                -605
           4       Number of community education events conducted                                   28                   16               12                   -4
                                         OUTCOME MEASURES
           5       Number of volunteers who, for the first time, conducted activities to
                   educate beneficiaries                                                                8                 5               3                     -2
           6       Number of group sessions for beneficiaries led by volunteers                        22                10              12                      2
           7       Number of beneficiaries who attended group sessions led by
                   volunteers                                                                    1,306                  382              924                542
           8       Number of one-on-one sessions held between beneficiaries and
                   volunteers                                                                       27                   15               12                 -3
      7+8          Total number of beneficiaries educated                                        1,333                  397              936                539
        9          Estimated number of people reached by media events                       3,307,066             2,371,566          935,500          -1,436,066
       10          Estimated number of people reached by community education
                   events                                                                      12,475                 3,325            9,150               5,825
       11          Number of complaints received attributable to the project                       78                    53               25                 -28
       12          Number of complaints referred for follow-up                                     15                     4               11                   7
       13          Number of complaints that resulted in some action                                0                     0                0                   0
      14           Medicare funds recovered attributable to the project                            $0                    $0               $0                  $0
    15A            Medicaid funds recovered attributable to the project                            $0                   NA                $0                 NA
    15B            Savings to beneficiaries attributable to the project                            $0                   NA                $0                 NA
    15C            Other savings attributable to the project                                       $0                   NA                $0                 NA
TOTAL 15           Total Medicaid funds, beneficiary savings, and other savings                    $0                    $0               $0                  $0
  14 + 15          Total savings attributable to the project                                       $0                    $0               $0                  $0




                                                                                                                                                          55

  A    P       P     E   N   D   I   X   ~    D




                                 New Hampshire - New Hampshire Division of Elderly and Adult Services, Concord
                                                                                           Total for        January through    July through    Change in Last 6
                                     PERFORMANCE MEASURES                                   2003               June 2003      December 2003        Months
                                             OUTPUT MEASURES
           1       Number of training sessions conducted to train new volunteers                        4                 3               1                   -2
           2       Number of new volunteers trained                                                    46                37               9                  -28
           3       Number of media events conducted                                                    26                 8              18                   10
           4       Number of community education events conducted                                      93                48              45                   -3
                                         OUTCOME MEASURES
           5       Number of volunteers who, for the first time, conducted activities to
                   educate beneficiaries                                                          179                   170               9                 -161
           6       Number of group sessions for beneficiaries led by volunteers                    85                    39              46                    7
           7       Number of beneficiaries who attended group sessions led by
                   volunteers                                                                  12,803                11,678            1,125             -10,553
           8       Number of one-on-one sessions held between beneficiaries and
                   volunteers                                                                   7,652                 3,993            3,659                -334
      7+8          Total number of beneficiaries educated                                      20,455                15,671            4,784             -10,887
        9          Estimated number of people reached by media events                         358,095               215,295          142,800             -72,495
       10          Estimated number of people reached by community education
                   events                                                                      12,394                 1,594           10,800               9,206
       11          Number of complaints received attributable to the project                       20                    13                7                  -6
       12          Number of complaints referred for follow-up                                      8                     8                0                  -8
       13          Number of complaints that resulted in some action                                3                     3                0                  -3
      14           Medicare funds recovered attributable to the project                            $0                    $0               $0                  $0
    15A            Medicaid funds recovered attributable to the project                            $0                    NA               $0                 NA
    15B            Savings to beneficiaries attributable to the project                            $0                    NA               $0                 NA
    15C            Other savings attributable to the project                                       $0                    NA               $0                 NA
TOTAL 15           Total Medicaid funds, beneficiary savings, and other savings               $30,645               $30,645               $0            -$30,645
  14 + 15          Total savings attributable to the project                                  $30,645               $30,645               $0            -$30,645




                                                                                                                                                          56

 A   P    P   E   N   D   I   X    ~   D




                          New Jersey - Jewish Family & Vocational Services of Middlesex County, Inc., Edison
                                                                                      Total for        January through    July through     Change in Last 6
                                  PERFORMANCE MEASURES                                 2003               June 2003      December 2003         Months
                                       OUTPUT MEASURES
          1   Number of training sessions conducted to train new volunteers                        4                 1                3                      2
          2   Number of new volunteers trained                                                    46                 8               38                     30
          3   Number of media events conducted                                                     7                 2                5                      3
          4   Number of community education events conducted                                      19                10                9                     -1
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                           34                    22               12                  -10
          6   Number of group sessions for beneficiaries led by volunteers                   129                    61               68                    7
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                    7,599                3,747             3,852                105
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                      140                   20               120                100
     7+8      Total number of beneficiaries educated                                        7,739                3,767             3,972                205
          9   Estimated number of people reached by media events                       1,370,647               169,000         1,201,647           1,032,647
         10   Estimated number of people reached by community education
              events                                                                      11,203                 5,800             5,403                -397
         11   Number of complaints received attributable to the project                       54                    24                30                   6
         12   Number of complaints referred for follow-up                                      0                     0                 0                   0
         13   Number of complaints that resulted in some action                                0                     0                 0                   0
      14      Medicare funds recovered attributable to the project                            $0                    $0                $0                  $0
    15A       Medicaid funds recovered attributable to the project                            $0                   NA                 $0                  NA
    15B       Savings to beneficiaries attributable to the project                            $0                   NA                 $0                  NA
    15C       Other savings attributable to the project                                       $0                   NA                 $0                  NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings                    $0                    $0                $0                  $0
  14 + 15     Total savings attributable to the project                                       $0                    $0                $0                  $0




                                                                                                                                                      57

  A    P       P     E   N   D   I   X   ~    D




                                                  New Mexico - New Mexico State Agency on Aging, Santa Fe
                                                                                           Total for        January through    July through    Change in Last 6
                                     PERFORMANCE MEASURES                                   2003               June 2003      December 2003        Months
                                             OUTPUT MEASURES
           1       Number of training sessions conducted to train new volunteers                   17                    12               5                    -7
           2       Number of new volunteers trained                                               268                   260               8                 -252
           3       Number of media events conducted                                                10                     5               5                     0
           4       Number of community education events conducted                                  43                    28              15                   -13
                                         OUTCOME MEASURES
           5       Number of volunteers who, for the first time, conducted activities to
                   educate beneficiaries                                                               28                20               8                  -12
           6       Number of group sessions for beneficiaries led by volunteers                        65                42              23                  -19
           7       Number of beneficiaries who attended group sessions led by
                   volunteers                                                                    1,838                  839              999                160
           8       Number of one-on-one sessions held between beneficiaries and
                   volunteers                                                                  17,959                 2,648           15,311             12,663
      7+8          Total number of beneficiaries educated                                      19,797                 3,487           16,310             12,823
        9          Estimated number of people reached by media events                         598,000               250,000          348,000             98,000
       10          Estimated number of people reached by community education
                   events                                                                      19,565                 7,740           11,825              4,085
       11          Number of complaints received attributable to the project                       79                    53               26                 -27
       12          Number of complaints referred for follow-up                                     79                    53               26                 -27
       13          Number of complaints that resulted in some action                               30                    16               14                  -2
      14           Medicare funds recovered attributable to the project                            $0                    $0               $0                  $0
    15A            Medicaid funds recovered attributable to the project                            $0                    NA               $0                 NA
    15B            Savings to beneficiaries attributable to the project                      $143,020                    NA         $143,020                 NA
    15C            Other savings attributable to the project                                       $0                    NA               $0                 NA
TOTAL 15           Total Medicaid funds, beneficiary savings, and other savings              $231,354               $88,334         $143,020            $54,686
  14 + 15          Total savings attributable to the project                                 $231,354               $88,334         $143,020            $54,686




                                                                                                                                                          58

 A   P    P   E   N   D   I   X    ~   D




                                               New York – New York State Office for the Aging, Albany
                                                                                      Total for     January through    July through    Change in Last 6
                                  PERFORMANCE MEASURES                                 2003            June 2003      December 2003        Months
                                       OUTPUT MEASURES
          1   Number of training sessions conducted to train new volunteers                   62                 35              27                   -8
          2   Number of new volunteers trained                                               617                556              61                 -495
          3   Number of media events conducted                                                24                 15               9                   -6
          4   Number of community education events conducted                                 141                126              15                 -111
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                          727                386              341                  -45
          6   Number of group sessions for beneficiaries led by volunteers                   280                235               45                -190
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                    3,019             1,999            1,020                -979
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                    5,772             1,637            4,135               2,498
     7+8      Total number of beneficiaries educated                                        8,791             3,636            5,155               1,519
          9   Estimated number of people reached by media events                          90,012             41,275           48,737               7,462
         10   Estimated number of people reached by community education
              events                                                                      171,505           113,560           57,945              -55,615
         11   Number of complaints received attributable to the project                     6,100             5,261              839               -4,422
         12   Number of complaints referred for follow-up                                     275                 4              271                  267
         13   Number of complaints that resulted in some action                                90                19               71                   52
      14      Medicare funds recovered attributable to the project                         $8,598            $6,902           $1,696              -$5,206
    15A       Medicaid funds recovered attributable to the project                             $0                NA               $0                   NA
    15B       Savings to beneficiaries attributable to the project                             $0                NA               $0                   NA
    15C       Other savings attributable to the project                                        $0                NA               $0                   NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings            $20,900,000       $20,900,000               $0        -$20,900,000
  14 + 15     Total savings attributable to the project                               $20,908,598       $20,906,902           $1,696        -$20,905,206




                                                                                                                                                  59

  A    P       P     E   N   D   I   X   ~    D




                             North Carolina - Department of Health and Human Services, Division of Aging, Raleigh
                                                                                           Total for     January through    July through    Change in Last 6
                                     PERFORMANCE MEASURES                                   2003            June 2003      December 2003        Months
                                             OUTPUT MEASURES
           1       Number of training sessions conducted to train new volunteers                   37                 37               0                   -37
           2       Number of new volunteers trained                                               140                138               2                 -136
           3       Number of media events conducted                                                83                 77               6                   -71
           4       Number of community education events conducted                                 164                151              13                 -138
                                         OUTCOME MEASURES
           5       Number of volunteers who, for the first time, conducted activities to
                   educate beneficiaries                                                           47                 45               2                  -43
           6       Number of group sessions for beneficiaries led by volunteers                   103                 84              19                  -65
           7       Number of beneficiaries who attended group sessions led by
                   volunteers                                                                    4,092             2,977            1,115              -1,862
           8       Number of one-on-one sessions held between beneficiaries and
                   volunteers                                                                      653               648                5                -643
      7+8          Total number of beneficiaries educated                                        4,745             3,625            1,120              -2,505
        9          Estimated number of people reached by media events                         699,805            698,625            1,180            -697,445
       10          Estimated number of people reached by community education
                   events                                                                      11,254             10,929              325             -10,604
       11          Number of complaints received attributable to the project                       48                 48                0                  -48
       12          Number of complaints referred for follow-up                                     11                 11                0                  -11
       13          Number of complaints that resulted in some action                                0                  0                0                    0
      14           Medicare funds recovered attributable to the project                            $0                 $0               $0                   $0
    15A            Medicaid funds recovered attributable to the project                            $0                NA                $0                  NA
    15B            Savings to beneficiaries attributable to the project                            $0                NA                $0                  NA
    15C            Other savings attributable to the project                                       $0                NA                $0                  NA
TOTAL 15           Total Medicaid funds, beneficiary savings, and other savings                    $0                 $0               $0                   $0
  14 + 15          Total savings attributable to the project                                       $0                 $0               $0                   $0




                                                                                                                                                       60

  A    P       P     E   N   D   I   X   ~    D




                                                         North Carolina - Department of Insurance, Raleigh
                                                                                           Total for        January through    July through   Change in Last 6
                                     PERFORMANCE MEASURES                                   2003               June 2003      December 2003       Months
                                             OUTPUT MEASURES
           1       Number of training sessions conducted to train new volunteers                       0                NA                0                 NA
           2       Number of new volunteers trained                                                    0                NA                0                 NA
           3       Number of media events conducted                                                    0                NA                0                 NA
           4       Number of community education events conducted                                      0                NA                0                 NA
                                         OUTCOME MEASURES                                                               NA                                  NA
           5       Number of volunteers who, for the first time, conducted activities to
                   educate beneficiaries                                                               0                NA                0                 NA
           6       Number of group sessions for beneficiaries led by volunteers                        0                NA                0                 NA
           7       Number of beneficiaries who attended group sessions led by
                   volunteers                                                                          0                NA                0                 NA
           8       Number of one-on-one sessions held between beneficiaries and
                   volunteers                                                                          0                NA                0                 NA
      7+8          Total number of beneficiaries educated                                              0                NA                0                 NA
        9          Estimated number of people reached by media events                                  0                NA                0                 NA
       10          Estimated number of people reached by community education
                   events                                                                               0               NA                0                 NA
       11          Number of complaints received attributable to the project                            1               NA                1                 NA
       12          Number of complaints referred for follow-up                                          1               NA                1                 NA
       13          Number of complaints that resulted in some action                                    0               NA                0                 NA
      14           Medicare funds recovered attributable to the project                                $0               NA               $0                 NA
    15A            Medicaid funds recovered attributable to the project                                $0               NA               $0                 NA
    15B            Savings to beneficiaries attributable to the project                                $0               NA               $0                 NA
    15C            Other savings attributable to the project                                           $0               NA               $0                 NA
TOTAL 15           Total Medicaid funds, beneficiary savings, and other savings                        $0               NA               $0                 NA
  14 + 15          Total savings attributable to the project                                           $0               NA               $0                 NA




                                                                                                                                                         61

 A   P    P   E   N   D   I   X    ~   D




                                           North Dakota - Legal Assistance of North Dakota, Inc., Bismarck
                                                                                      Total for        January through    July through    Change in Last 6
                                  PERFORMANCE MEASURES                                 2003               June 2003      December 2003        Months
                                       OUTPUT MEASURES
          1   Number of training sessions conducted to train new volunteers                        5               NA                5                  NA
          2   Number of new volunteers trained                                                    45               NA               45                  NA
          3   Number of media events conducted                                                     1               NA                1                  NA
          4   Number of community education events conducted                                      32               NA               32                  NA
                                    OUTCOME MEASURES                                                               NA                                   NA
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                               0                NA                0                  NA
          6   Number of group sessions for beneficiaries led by volunteers                        0                NA                0                  NA
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                          0                NA                0                  NA
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                          0                NA                0                  NA
     7+8      Total number of beneficiaries educated                                              0                NA                0                  NA
          9   Estimated number of people reached by media events                            7,500                  NA             7,500                 NA
         10   Estimated number of people reached by community education
              events                                                                        1,050                  NA             1,050                 NA
         11   Number of complaints received attributable to the project                         1                  NA                 1                 NA
         12   Number of complaints referred for follow-up                                       1                  NA                 1                 NA
         13   Number of complaints that resulted in some action                                 0                  NA                 0                 NA
      14      Medicare funds recovered attributable to the project                             $0                  NA                $0                 NA
    15A       Medicaid funds recovered attributable to the project                             $0                  NA                $0                 NA
    15B       Savings to beneficiaries attributable to the project                             $0                  NA                $0                 NA
    15C       Other savings attributable to the project                                        $0                  NA                $0                 NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings                     $0                  NA                $0                 NA
  14 + 15     Total savings attributable to the project                                        $0                  NA                $0                 NA




                                                                                                                                                     62

  A    P       P     E   N   D   I   X   ~    D




                                                      Ohio - Central Ohio Area Agency on Aging, Columbus
                                                                                           Total for        January through    July through     Change in Last 6
                                     PERFORMANCE MEASURES                                   2003               June 2003      December 2003         Months
                                             OUTPUT MEASURES
           1       Number of training sessions conducted to train new volunteers                    8                     6                2                  -4
           2       Number of new volunteers trained                                                69                    44               25                 -19
           3       Number of media events conducted                                               219                    45              174                 129
           4       Number of community education events conducted                                 284                    83              201                 118
                                         OUTCOME MEASURES
           5       Number of volunteers who, for the first time, conducted activities to
                   educate beneficiaries                                                               31                16               15                     -1
           6       Number of group sessions for beneficiaries led by volunteers                        68                14               54                     40
           7       Number of beneficiaries who attended group sessions led by
                   volunteers                                                                     983                   245              738                 493
           8       Number of one-on-one sessions held between beneficiaries and
                   volunteers                                                                      129                   16              113                  97
      7+8          Total number of beneficiaries educated                                        1,112                  261              851                 590
        9          Estimated number of people reached by media events                       2,047,803               952,343         1,095,460            143,117
       10          Estimated number of people reached by community education
                   events                                                                      73,478                11,280           62,198              50,918
       11          Number of complaints received attributable to the project                        0                     0                0                   0
       12          Number of complaints referred for follow-up                                      0                     0                0                   0
       13          Number of complaints that resulted in some action                                0                     0                0                   0
      14           Medicare funds recovered attributable to the project                            $0                    $0               $0                  $0
    15A            Medicaid funds recovered attributable to the project                            $0                   NA                $0                 NA
    15B            Savings to beneficiaries attributable to the project                            $0                   NA                $0                 NA
    15C            Other savings attributable to the project                                       $0                   NA                $0                 NA
TOTAL 15           Total Medicaid funds, beneficiary savings, and other savings                    $0                    $0               $0                  $0
  14 + 15          Total savings attributable to the project                                       $0                    $0               $0                  $0




                                                                                                                                                           63

 A   P    P   E   N   D   I   X    ~   D




                                                              Ohio - Pro Seniors, Inc., Cincinnati
                                                                                      Total for        January through    July through     Change in Last 6
                                  PERFORMANCE MEASURES                                 2003               June 2003      December 2003         Months
                                       OUTPUT MEASURES
          1   Number of training sessions conducted to train new volunteers                    6                     5                1                    -4
          2   Number of new volunteers trained                                                69                    55               14                   -41
          3   Number of media events conducted                                               922                   862               60                 -802
          4   Number of community education events conducted                                  12                     3                9                     6
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                               31                15               16                      1
          6   Number of group sessions for beneficiaries led by volunteers                        69                39               30                     -9
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                    1,550                  834              716                 -118
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                       69                   12               57                   45
     7+8      Total number of beneficiaries educated                                        1,619                  846              773                  -73
          9   Estimated number of people reached by media events                       2,796,510             1,792,553         1,003,957            -788,596
         10   Estimated number of people reached by community education
              events                                                                        7,444                3,304             4,140                836
         11   Number of complaints received attributable to the project                        18                    7                11                  4
         12   Number of complaints referred for follow-up                                       3                    2                 1                 -1
         13   Number of complaints that resulted in some action                                 2                    0                 2                  2
      14      Medicare funds recovered attributable to the project                          $264                    $0             $264                $264
    15A       Medicaid funds recovered attributable to the project                             $0                  NA                 $0                NA
    15B       Savings to beneficiaries attributable to the project                             $0                  NA                 $0                NA
    15C       Other savings attributable to the project                                        $0                  NA                 $0                NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings                     $0                   $0                $0                 $0
  14 + 15     Total savings attributable to the project                                     $264                    $0             $264                $264




                                                                                                                                                      64

  A    P       P     E   N   D   I   X   ~    D




                                             Oklahoma - State of Oklahoma Insurance Department, Oklahoma City
                                                                                           Total for        January through    July through    Change in Last 6
                                     PERFORMANCE MEASURES                                   2003               June 2003      December 2003        Months
                                             OUTPUT MEASURES
           1       Number of training sessions conducted to train new volunteers                   16                    12               4                    -8
           2       Number of new volunteers trained                                               176                   146              30                 -116
           3       Number of media events conducted                                                 7                     5               2                    -3
           4       Number of community education events conducted                                  64                    55               9                   -46
                                         OUTCOME MEASURES
           5       Number of volunteers who, for the first time, conducted activities to
                   educate beneficiaries                                                                4                 2               2                    0
           6       Number of group sessions for beneficiaries led by volunteers                        57                55               2                  -53
           7       Number of beneficiaries who attended group sessions led by
                   volunteers                                                                     805                   755              50                 -705
           8       Number of one-on-one sessions held between beneficiaries and
                   volunteers                                                                       5                     3               2                   -1
      7+8          Total number of beneficiaries educated                                         810                   758              52                 -706
        9          Estimated number of people reached by media events                          22,700                18,500            4,200             -14,300
       10          Estimated number of people reached by community education
                   events                                                                      17,315                 7,993            9,322               1,329
       11          Number of complaints received attributable to the project                       71                    65                6                  -59
       12          Number of complaints referred for follow-up                                      3                     0                3                    3
       13          Number of complaints that resulted in some action                                2                     0                2                    2
      14           Medicare funds recovered attributable to the project                         $461                  $461                $0               -$461
    15A            Medicaid funds recovered attributable to the project                            $0                   NA                $0                  NA
    15B            Savings to beneficiaries attributable to the project                            $0                   NA                $0                  NA
    15C            Other savings attributable to the project                                       $0                   NA                $0                  NA
TOTAL 15           Total Medicaid funds, beneficiary savings, and other savings                    $0                    $0               $0                   $0
  14 + 15          Total savings attributable to the project                                    $461                  $461                $0               -$461




                                                                                                                                                          65

 A   P    P   E   N   D   I   X    ~   D




                                                     Oregon – Senior Medicare Patrol Project, Salem
                                                                                      Total for        January through    July through    Change in Last 6
                                  PERFORMANCE MEASURES                                 2003               June 2003      December 2003        Months
                                       OUTPUT MEASURES
          1   Number of training sessions conducted to train new volunteers                    8                     1                7                  6
          2   Number of new volunteers trained                                                58                    20               38                 18
          3   Number of media events conducted                                            17,006                     3           17,003             17,000
          4   Number of community education events conducted                                  50                    31               19                -12
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                               58                20              38                   18
          6   Number of group sessions for beneficiaries led by volunteers                        28                20               8                  -12
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                    1,230                  990              240                -750
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                    4,550                1,285            3,265               1,980
     7+8      Total number of beneficiaries educated                                        5,780                2,275            3,505               1,230
          9   Estimated number of people reached by media events                         318,036               151,036          167,000             15,964
         10   Estimated number of people reached by community education
              events                                                                       7,918                 2,913            5,005               2,092
         11   Number of complaints received attributable to the project                        8                     5                3                   -2
         12   Number of complaints referred for follow-up                                      2                     0                2                    2
         13   Number of complaints that resulted in some action                                0                     0                0                    0
      14      Medicare funds recovered attributable to the project                        $1,230                $1,230               $0             -$1,230
    15A       Medicaid funds recovered attributable to the project                            $0                   NA                $0                  NA
    15B       Savings to beneficiaries attributable to the project                            $0                   NA                $0                  NA
    15C       Other savings attributable to the project                                       $0                   NA                $0                  NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings                    $0                    $0               $0                  $0
  14 + 15     Total savings attributable to the project                                   $1,230                $1,230               $0             -$1,230




                                                                                                                                                     66

 A   P    P   E   N   D   I   X    ~   D




                      Pennsylvania - Center for Advocacy for the Rights and Interests of the Elderly, Philadelphia
                                                                                      Total for        January through    July through    Change in Last 6
                                  PERFORMANCE MEASURES                                 2003               June 2003      December 2003        Months
                                       OUTPUT MEASURES
          1   Number of training sessions conducted to train new volunteers                       15                10               5                   -5
          2   Number of new volunteers trained                                                    91                68              23                  -45
          3   Number of media events conducted                                                    19                13               6                   -7
          4   Number of community education events conducted                                      30                20              10                  -10
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                           23                    11              12                    1
          6   Number of group sessions for beneficiaries led by volunteers                   195                   117              78                  -39
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                  12,124                 9,162            2,962              -6,200
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                      50                     0               50                  50
     7+8      Total number of beneficiaries educated                                      12,174                 9,162            3,012              -6,150
          9   Estimated number of people reached by media events                      22,073,092            22,063,092           10,000         -22,053,092
         10   Estimated number of people reached by community education
              events                                                                        6,132                5,723             409               -5,314
         11   Number of complaints received attributable to the project                       254                  154             100                  -54
         12   Number of complaints referred for follow-up                                      11                    6               5                   -1
         13   Number of complaints that resulted in some action                                 1                    0               1                    1
      14      Medicare funds recovered attributable to the project                          $161                    $0            $161                 $161
    15A       Medicaid funds recovered attributable to the project                             $0                  NA               $0                  NA
    15B       Savings to beneficiaries attributable to the project                             $0                  NA               $0                  NA
    15C       Other savings attributable to the project                                        $0                  NA               $0                  NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings                     $0                   $0              $0                   $0
  14 + 15     Total savings attributable to the project                                     $161                    $0            $161                 $161




                                                                                                                                                     67

 A   P    P   E   N   D   I   X    ~   D




                                            Puerto Rico - Governor's Office of Elderly Affairs, San Juan
                                                                                      Total for        January through    July through    Change in Last 6
                                  PERFORMANCE MEASURES                                 2003               June 2003      December 2003        Months
                                       OUTPUT MEASURES
          1   Number of training sessions conducted to train new volunteers                   14                     8                6                  -2
          2   Number of new volunteers trained                                               129                    12              117                 105
          3   Number of media events conducted                                                22                    19                3                 -16
          4   Number of community education events conducted                                  47                    11               36                  25
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                               17                 8               9                    1
          6   Number of group sessions for beneficiaries led by volunteers                        79                48              31                  -17
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                    5,934                1,063            4,871               3,808
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                      600                  330              270                 -60
     7+8      Total number of beneficiaries educated                                        6,534                1,393            5,141               3,748
          9   Estimated number of people reached by media events                       1,675,000             1,500,000          175,000          -1,325,000
         10   Estimated number of people reached by community education
              events                                                                         639                   420              219                -201
         11   Number of complaints received attributable to the project                       52                    24               28                    4
         12   Number of complaints referred for follow-up                                     34                    13               21                    8
         13   Number of complaints that resulted in some action                               10                     9                1                   -8
      14      Medicare funds recovered attributable to the project                        $1,101                $1,046              $55               -$991
    15A       Medicaid funds recovered attributable to the project                            $0                    NA               $0                  NA
    15B       Savings to beneficiaries attributable to the project                            $0                    NA               $0                  NA
    15C       Other savings attributable to the project                                       $0                    NA               $0                  NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings                    $0                    $0               $0                  $0
  14 + 15     Total savings attributable to the project                                   $1,101                $1,046              $55               -$991




                                                                                                                                                     68

 A   P    P   E   N   D   I   X    ~   D




                                                          Rhode Island – Aging 2000, Inc., Providence
                                                                                      Total for        January through    July through     Change in Last 6
                                  PERFORMANCE MEASURES                                 2003               June 2003      December 2003         Months
                                       OUTPUT MEASURES
          1   Number of training sessions conducted to train new volunteers                     2                    1                 1                   0
          2   Number of new volunteers trained                                                  6                    1                 5                   4
          3   Number of media events conducted                                              4,165                1,094             3,071               1,977
          4   Number of community education events conducted                                   18                    5                13                   8
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                                0                 0                0                      0
          6   Number of group sessions for beneficiaries led by volunteers                        21                14                7                     -7
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                     563                   382              181                 -201
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                       0                     0                0                    0
     7+8      Total number of beneficiaries educated                                         563                   382              181                 -201
          9   Estimated number of people reached by media events                      14,744,000             8,744,000         6,000,000          -2,744,000
         10   Estimated number of people reached by community education
              events                                                                      71,700                21,700           50,000              28,300
         11   Number of complaints received attributable to the project                       11                     7                4                  -3
         12   Number of complaints referred for follow-up                                      4                     1                3                   2
         13   Number of complaints that resulted in some action                                0                     0                0                   0
      14      Medicare funds recovered attributable to the project                            $0                    $0               $0                  $0
    15A       Medicaid funds recovered attributable to the project                            $0                   NA                $0                 NA
    15B       Savings to beneficiaries attributable to the project                            $0                   NA                $0                 NA
    15C       Other savings attributable to the project                                       $0                   NA                $0                 NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings                    $0                    $0               $0                  $0
  14 + 15     Total savings attributable to the project                                       $0                    $0               $0                  $0




                                                                                                                                                      69

 A   P    P   E   N   D   I   X    ~   D




                                       South Carolina - Department of Health and Human Services, Columbia
                                                                                      Total for        January through    July through    Change in Last 6
                                  PERFORMANCE MEASURES                                 2003               June 2003      December 2003        Months
                                       OUTPUT MEASURES
          1   Number of training sessions conducted to train new volunteers                        4                 4               0                   -4
          2   Number of new volunteers trained                                                    52                52               0                  -52
          3   Number of media events conducted                                                     4                 0               4                    4
          4   Number of community education events conducted                                      48                20              28                    8
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                               18                 8              10                     2
          6   Number of group sessions for beneficiaries led by volunteers                        19                 8              11                     3
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                    2,841                  450            2,391               1,941
          8   Number of one-on-one sessions held betwe en beneficiaries and
              volunteers                                                                       57                    8               49                  41
     7+8      Total number of beneficiaries educated                                        2,898                  458            2,440               1,982
          9   Estimated number of people reached by media events                            1,620                    0            1,620               1,620
         10   Estimated number of people reached by community education
              events                                                                        2,535                2,100              435              -1,665
         11   Number of complaints received attributable to the project                        11                    3                8                   5
         12   Number of complaints referred for follow-up                                       5                    3                2                  -1
         13   Number of complaints that resulted in some action                                 0                    0                0                   0
      14      Medicare funds recovered attributable to the project                             $0                   $0               $0                  $0
    15A       Medicaid funds recovered attributable to the project                             $0                  NA                $0                 NA
    15B       Savings to beneficiaries attributable to the project                             $0                  NA                $0                 NA
    15C       Other savings attributable to the project                                        $0                  NA                $0                 NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings                     $0                   $0               $0                  $0
  14 + 15     Total savings attributable to the project                                        $0                   $0               $0                  $0




                                                                                                                                                     70

 A   P    P   E   N   D   I   X    ~   D




                                           South Dakota - East River Legal Services Corporation, Sioux Falls
                                                                                      Total for        January through    July through    Change in Last 6
                                  PERFORMANCE MEASURES                                 2003               June 2003      December 2003        Months
                                       OUTPUT MEASURES
          1   Number of training sessions conducted to train new volunteers                        4                 3               1                   -2
          2   Number of new volunteers trained                                                    38                35               3                  -32
          3   Number of media events conducted                                                     2                 2               0                   -2
          4   Number of community education events conducted                                       5                 3               2                   -1
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                                2                 0               2                      2
          6   Number of group sessions for beneficiaries led by volunteers                        18                10               8                     -2
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                     684                   351              333                 -18
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                      388                  189              199                    10
     7+8      Total number of beneficiaries educated                                        1,072                  540              532                    -8
          9   Estimated number of people reached by media events                            2,000                2,000               0               -2,000
         10   Estimated number of people reached by community education
              events                                                                         990                   340              650                310
         11   Number of complaints received attributable to the project                        3                     0                3                  3
         12   Number of complaints referred for follow-up                                      0                     0                0                  0
         13   Number of complaints that resulted in some action                                3                     0                3                  3
      14      Medicare funds recovered attributable to the project                            $0                    $0               $0                 $0
    15A       Medicaid funds recovered attributable to the project                            $0                   NA                $0                NA
    15B       Savings to beneficiaries attributable to the project                            $0                   NA                $0                NA
    15C       Other savings attributable to the project                                       $0                   NA                $0                NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings                    $0                    $0               $0                 $0
  14 + 15     Total savings attributable to the project                                       $0                    $0               $0                 $0




                                                                                                                                                     71

 A   P    P   E   N   D   I   X    ~   D




                                       Tennessee - Upper Cumberland Development District/AAA, Cookeville
                                                                                      Total for    January through    July through    Change in Last 6
                                  PERFORMANCE MEASURES                                 2003           June 2003      December 2003        Months
                                       OUTPUT MEASURES
          1   Number of training sessions conducted to train new volunteers                   16                12               4                   -8
          2   Number of new volunteers trained                                                91                52              39                  -13
          3   Number of media events conducted                                               130                87              43                  -44
          4   Number of community education events conducted                                 116                64              52                  -12
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                          114                96               18                 -78
          6   Number of group sessions for beneficiaries led by volunteers                   263               123              140                  17
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                  11,391             4,316            7,075               2,759
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                     404               314               90                -224
     7+8      Total number of beneficiaries educated                                      11,795             4,630            7,165               2,535
          9   Estimated number of people reached by media events                         870,574           513,034          357,540            -155,494
         10   Estimated number of people reached by community education
              events                                                                      15,583             6,924            8,659               1,735
         11   Number of complaints received attributable to the project                       36                14               22                    8
         12   Number of complaints referred for follow-up                                      9                 5                4                   -1
         13   Number of complaints that resulted in some action                               11                 3                8                    5
      14      Medicare funds recovered attributable to the project                            $0                $0               $0                  $0
    15A       Medicaid funds recovered attributable to the project                            $0               NA                $0                  NA
    15B       Savings to beneficiaries attributable to the project                        $1,969               NA            $1,969                  NA
    15C       Other savings attributable to the project                                       $0               NA                $0                  NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings                $7,145            $5,176           $1,969             -$3,207
  14 + 15     Total savings attributable to the project                                   $7,145            $5,176           $1,969             -$3,207




                                                                                                                                                 72

 A   P    P   E   N   D   I   X ~    D




                                         Texas - Better Business Bureau Education Foundation, Houston
                                                                                      Total for     January through    July through    Change in Last 6
                                PERFORMANCE MEASURES                                   2003            June 2003      December 2003        Months
                                      OUTPUT MEASURES
          1   Number of training sessions conducted to train new volunteers                    6                  3               3                    0
          2   Number of new volunteers trained                                               102                 22              80                   58
          3   Number of media events conducted                                                 7                  3               4                    1
          4   Number of community education events conducted                                 130                101              29                  -72
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                          102                 24              78                   54
          6   Number of group sessions for beneficiaries led by volunteers                    94                 55              39                  -16
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                    2,414             1,331            1,083                -248
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                       41                26               15                  -11
     7+8      Total number of beneficiaries educated                                        2,455             1,357            1,098                -259
          9   Estimated number of people reached by media events                         239,000            132,000          107,000             -25,000
         10   Estimated number of people reached by community education
              events                                                                       5,325              4,757              568             -4,189
         11   Number of complaints received attributable to the project                       62                 48               14                 -34
         12   Number of complaints referred for follow-up                                     24                 24                0                 -24
         13   Number of complaints that resulted in some action                               12                  5                7                   2
      14      Medicare funds recovered attributable to the project                       $85,301            $20,323          $64,978            $44,654
    15A       Medicaid funds recovered attributable to the project                            $0                 NA               $0                 NA
    15B       Savings to beneficiaries attributable to the project                            $0                 NA               $0                 NA
    15C       Other savings attributable to the project                                       $0                 NA               $0                 NA
TOTAL 15      Total Medicaid funds , beneficiary savings, and other savings                   $0                 $0               $0                  $0
  14 + 15     Total savings attributable to the project                                  $85,301            $20,323          $64,978            $44,654




                                                                                                                                                  73

 A   P    P   E   N   D   I   X    ~   D




                                           Texas - The National Hispanic Council on Aging, Corpus Christi
                                                                                      Total for        January through    July through    Change in Last 6
                                  PERFORMANCE MEASURES                                 2003               June 2003      December 2003        Months
                                       OUTPUT MEASURES
          1   Number of training sessions conducted to train new volunteers                   18                    16               2                   -14
          2   Number of new volunteers trained                                               127                   115              12                 -103
          3   Number of media events conducted                                                26                    18               8                   -10
          4   Number of community education events conducted                                  48                    38              10                   -28
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                               16                16               0                   -16
          6   Number of group sessions for beneficiaries led by volunteers                        79                45              34                   -11
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                    1,429                  211            1,218               1,007
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                      311                  268               43                -225
     7+8      Total number of beneficiaries educated                                        1,740                  479            1,261                 782
          9   Estimated number of people reached by media events                       1,182,730               862,730          320,000            -542,730
         10   Estimated number of people reached by community education
              events                                                                     236,550                26,550          210,000             183,450
         11   Number of complaints received attributable to the project                      150                    94               56                   -38
         12   Number of complaints referred for follow-up                                     46                    31               15                   -16
         13   Number of complaints that resulted in some action                                3                     3                0                    -3
      14      Medicare funds recovered attributable to the project                       $13,491               $13,491               $0            -$13,491
    15A       Medicaid funds recovered attributable to the project                            $0                    NA               $0                   NA
    15B       Savings to beneficiaries attributable to the project                            $0                    NA               $0                   NA
    15C       Other savings attributable to the project                                       $0                    NA               $0                   NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings                $1,447                $1,447               $0              -$1,447
  14 + 15     Total savings attributable to the project                                  $14,938               $14,938               $0            -$14,938




                                                                                                                                                     74

  A    P       P     E   N   D   I   X   ~    D




                                                               Utah - Utah Legal Services, Salt Lake City
                                                                                           Total for     January through    July through    Change in La st 6
                                     PERFORMANCE MEASURES                                   2003            June 2003      December 2003        Months
                                             OUTPUT MEASURES
           1       Number of training sessions conducted to train new volunteers                   61                 43              18                   -25
           2       Number of new volunteers trained                                               514                463              51                 -412
           3       Number of media events conducted                                                19                 18               1                   -17
           4       Number of community education events conducted                                 131                104              27                   -77
                                         OUTCOME MEASURES
           5       Number of volunteers who, for the first time, conducted activities to
                   educate beneficiaries                                                           81                 50              31                   -19
           6       Number of group sessions for beneficiaries led by volunteers                   147                124              23                 -101
           7       Number of beneficiaries who attended group sessions led by
                   volunteers                                                                    2,704             2,015              689               -1,326
           8       Number of one-on-one sessions held between beneficiaries and
                   volunteers                                                                    1,019               853              166                 -687
      7+8          Total number of beneficiaries educated                                        3,723             2,868              855               -2,013
        9          Estimated number of people reached by media events                            1,500             1,400              100               -1,300
       10          Estimated number of people reached by community education
                   events                                                                      12,671              5,591            7,080               1,489
       11          Number of complaints received attributable to the project                       48                 13               35                  22
       12          Number of complaints referred for follow-up                                     10                  0               10                  10
       13          Number of complaints that resulted in some action                               10                  0               10                  10
      14           Medicare funds recovered attributable to the project                            $0                 $0               $0                  $0
    15A            Medicaid funds recovered attributable to the project                            $0                NA                $0                 NA
    15B            Savings to beneficiaries attributable to the project                            $0                NA                $0                 NA
    15C            Other savings attributable to the project                                       $0                NA                $0                 NA
TOTAL 15           Total Medicaid funds, beneficiary savings, and other savings                    $0                 $0               $0                  $0
  14 + 15          Total savings attributable to the project                                       $0                 $0               $0                  $0




                                                                                                                                                       75

 A   P    P   E   N   D   I   X    ~   D




                                                  Vermont - Community of Vermont Elders, Montpelier
                                                                                      Total for        January through    July through   Change in Last 6
                                  PERFORMANCE MEASURES                                 2003               June 2003      December 2003       Months
                                       OUTPUT MEASURES
          1   Number of training sessions conducted to train new volunteers                       0                NA                0                 NA
          2   Number of new volunteers trained                                                    0                NA                0                 NA
          3   Number of media events conducted                                                    0                NA                0                 NA
          4   Number of community education events conducted                                      0                NA                0                 NA
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                               0                NA                0                 NA
          6   Number of group sessions for beneficiaries led by volunteers                        0                NA                0                 NA
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                          0                NA                0                 NA
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                          0                NA                0                 NA
     7+8      Total number of beneficiaries educated                                              0                NA                0                 NA
          9   Estimated number of people reached by media events                                  0                NA                0                 NA
         10   Estimated number of people reached by community education
              events                                                                               0               NA                0                 NA
         11   Number of complaints received attributable to the project                            0               NA                0                 NA
         12   Number of complaints referred for follow-up                                          0               NA                0                 NA
         13   Number of complaints that resulted in some action                                    0               NA                0                 NA
      14      Medicare funds recovered attributable to the project                                $0               NA               $0                 NA
    15A       Medicaid funds recovered attributable to the project                                $0               NA               $0                 NA
    15B       Savings to beneficiaries attributable to the project                                $0               NA               $0                 NA
    15C       Other savings attributable to the project                                           $0               NA               $0                 NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings                        $0               NA               $0                 NA
  14 + 15     Total savings attributable to the project                                           $0               NA               $0                 NA




                                                                                                                                                    76

  A    P       P     E   N   D   I   X   ~    D




                                             Virginia - Virginia Association of Area Agencies on Aging, Richmond
                                                                                           Total for        January through    July through     Change in Last 6
                                     PERFORMANCE MEASURES                                   2003               June 2003      December 2003         Months
                                             OUTPUT MEASURES
           1       Number of training sessions conducted to train new volunteers                    8                     5                3                   -2
           2       Number of new volunteers trained                                                56                    41               15                  -26
           3       Number of media events conducted                                                50                    24               26                    2
           4       Number of community education events conducted                                 109                    45               64                   19
                                         OUTCOME MEASURES
           5       Number of volunteers who, for the first time, conducted activities to
                   educate beneficiaries                                                               10                 7                3                     -4
           6       Number of group sessions for beneficiaries led by volunteers                        41                 0               41                     41
           7       Number of beneficiaries who attended group sessions led by
                   volunteers                                                                    5,379                2,344             3,035                 691
           8       Number of one-on-one sessions held between beneficiaries and
                   volunteers                                                                        0                    0                 0                   0
      7+8          Total number of beneficiaries educated                                        5,379                2,344             3,035                 691
        9          Estimated number of people reached by media events                       3,033,490             1,214,490         1,819,000            604,510
       10          Estimated number of people reached by community education
                   events                                                                     222,402               200,000           22,402             -177,598
       11          Number of complaints received attributable to the project                       64                    34               30                    -4
       12          Number of complaints referred for follow-up                                     22                    11               11                     0
       13          Number of complaints that resulted in some action                                1                     1                0                    -1
      14           Medicare funds recovered attributable to the project                         $592                  $592                $0                -$592
    15A            Medicaid funds recovered attributable to the project                            $0                    NA               $0                   NA
    15B            Savings to beneficiaries attributable to the project                            $0                    NA               $0                   NA
    15C            Other savings attributable to the project                                       $0                    NA               $0                   NA
TOTAL 15           Total Medicaid funds, beneficiary savings, and other savings                    $0                    $0               $0                   $0
  14 + 15          Total savings attributable to the project                                    $592                  $592                $0                -$592




                                                                                                                                                           77

 A   P    P   E   N   D   I   X    ~   D




                                              Washington - Office of the Insurance Counselor, Olympia
                                                                                      Total for     January through    July through     Change in Last 6
                                  PERFORMANCE MEASURES                                 2003            June 2003      December 2003         Months
                                       OUTPUT MEASURES
          1   Number of training sessions conducted to train new volunteers                  372                199              173                  -26
          2   Number of new volunteers trained                                               569                240              329                   89
          3   Number of media events conducted                                               283                146              137                   -9
          4   Number of community education events conducted                                 115                 53               62                    9
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                          569                240              329                     89
          6   Number of group sessions for beneficiaries led by volunteers                   179                 78              101                     23
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                    7,014             2,693             4,321               1,628
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                  48,053             25,884           22,169               -3,715
     7+8      Total number of beneficiaries educated                                      55,067             28,577           26,490               -2,087
          9   Estimated number of people reached by media events                       8,317,642          3,437,489         4,880,153           1,442,664
         10   Estimated number of people reached by community education
              events                                                                      23,779             11,140           12,639                1,499
         11   Number of complaints received attributable to the project                       32                 20               12                   -8
         12   Number of complaints referred for follow-up                                      9                  6                3                   -3
         13   Number of complaints that resulted in some action                                7                  4                3                   -1
      14      Medicare funds recovered attributable to the project                            $0                 $0               $0                   $0
    15A       Medicaid funds recovered attributable to the project                            $0                NA                $0                  NA
    15B       Savings to beneficiaries attributable to the project                            $0                NA                $0                  NA
    15C       Other savings attributable to the project                                       $0                NA                $0                  NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings                    $0                 $0               $0                   $0
  14 + 15     Total savings attributable to the project                                       $0                 $0               $0                   $0




                                                                                                                                                   78

 A   P    P   E   N   D   I   X    ~   D




                                                          West Virginia - AARP Foundation, Charleston
                                                                                      Total for        January through    July through   Change in Last 6
                                  PERFORMANC E MEASURES                                2003               June 2003      December 2003       Months
                                       OUTPUT MEASURES
          1   Number of training sessions conducted to train new volunteers                       0                NA                0                 NA
          2   Number of new volunteers trained                                                    0                NA                0                 NA
          3   Number of media events conducted                                                    0                NA                0                 NA
          4   Number of community education events conducted                                      0                NA                0                 NA
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                               0                NA                0                 NA
          6   Number of group sessions for beneficiaries led by volunteers                        0                NA                0                 NA
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                          0                NA                0                 NA
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                          0                NA                0                 NA
     7+8      Total number of beneficiaries educated                                              0                NA                0                 NA
          9   Estimated number of people reached by media events                                  0                NA                0                 NA
         10   Estimated number of people reached by community education
              events                                                                               0               NA                0                 NA
         11   Number of complaints received attributable to the project                            0               NA                0                 NA
         12   Number of complaints referred for follow-up                                          0               NA                0                 NA
         13   Number of complaints that resulted in some action                                    0               NA                0                 NA
      14      Medicare funds recovered attributable to the project                                $0               NA               $0                 NA
    15A       Medicaid funds recovered attributable to the project                                $0               NA               $0                 NA
    15B       Savings to beneficiaries attributable to the project                                $0               NA               $0                 NA
    15C       Other savings attributable to the project                                           $0               NA               $0                 NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings                        $0               NA               $0                 NA
  14 + 15     Total savings attributable to the project                                           $0               NA               $0                 NA




                                                                                                                                                    79

 A   P    P   E   N   D   I   X    ~   D




                                  West Virginia - West Virginia University Research Corporation, Morgantown
                                                                                      Total for        January through    July through   Change in Last 6
                                  PERFORMANCE MEASURES                                 2003               June 2003      December 2003       Months
                                       OUTPUT MEASURES
          1   Number of training sessions conducted to train new volunteers                       4                  4              NA                 NA
          2   Number of new volunteers trained                                                    7                  7              NA                 NA
          3   Number of media events conducted                                                    2                  2              NA                 NA
          4   Number of community education events conducted                                      4                  4              NA                 NA
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                               7                  7              NA                 NA
          6   Number of group sessions for beneficiaries led by volunteers                        7                  7              NA                 NA
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                          35                35              NA                 NA
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                           6                 6              NA                 NA
     7+8      Total number of beneficiaries educated                                              41                41              NA                 NA
          9   Estimated number of people reached by media events                         100,000               100,000              NA                 NA
         10   Estimated number of people reached by community education
              events                                                                         400                   400              NA                 NA
         11   Number of complaints received attributable to the project                        0                     0              NA                 NA
         12   Number of complaints referred for follow-up                                      0                     0              NA                 NA
         13   Number of complaints that resulted in some action                                0                     0              NA                 NA
      14      Medicare funds recovered attributable to the project                            $0                    $0              NA                 NA
    15A       Medicaid funds recovered attributable to the project                           NA                    NA               NA                 NA
    15B       Savings to beneficiaries attributable to the project                           NA                    NA               NA                 NA
    15C       Other savings attributable to the project                                      NA                    NA               NA                 NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings                    $0                    $0              NA                 NA
  14 + 15     Total savings attributable to the project                                       $0                    $0              NA                 NA




                                                                                                                                                    80

 A   P    P   E   N   D   I   X    ~   D




                                            Wisconsin - Coalition of Wisconsin Aging Groups, Madison
                                                                                      Total for        January through    July through    Change in Last 6
                                  PERFORMANCE MEASURES                                 2003               June 2003      December 2003        Months
                                       OUTPUT MEASURES
          1   Number of training sessions conducted to train new volunteers                     9                    5               4                   -1
          2   Number of new volunteers trained                                                 71                   56              15                  -41
          3   Number of media events conducted                                              1,567                1,552              15               -1,537
          4   Number of community education events conducted                                   43                   11              32                   21
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                                6                 2               4                    2
          6   Number of group sessions for beneficiaries led by volunteers                        93                52              41                  -11
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                    7,986                1,607            6,379               4,772
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                      167                   98               69                 -29
     7+8      Total number of beneficiaries educated                                        8,153                1,705            6,448               4,743
          9   Estimated number of people reached by media events                       8,635,562             8,602,192           33,370          -8,568,822
         10   Estimated number of people reached by community education
              events                                                                        5,886                1,122            4,764               3,642
         11   Number of complaints received attributable to the project                        68                   41               27                 -14
         12   Number of complaints referred for follow-up                                      17                    8                9                   1
         13   Number of complaints that resulted in some action                                 7                    5                2                  -3
      14      Medicare funds recovered attributable to the project                            $20                   $0              $20                 $20
    15A       Medicaid funds recovered attributable to the project                             $0                  NA                $0                 NA
    15B       Savings to beneficiaries attributable to the project                             $0                  NA                $0                 NA
    15C       Other savings attributable to the project                                        $0                  NA                $0                 NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings                     $0                   $0               $0                  $0
  14 + 15     Total savings attributable to the project                                       $20                   $0              $20                 $20




                                                                                                                                                     81

 A   P    P   E   N   D   I   X    ~   D




                                           Wisconsin - Great Lakes Inter-Tribal Council, Lac du Flambeau
                                                                                      Total for        January through    July through    Change in Last 6
                                  PERFORMANCE MEASURES                                 2003               June 2003      December 2003        Months
                                       OUTPUT MEASURES
          1   Number of training s essions conducted to train new volunteers                       0               NA                0                  NA
          2   Number of new volunteers trained                                                     0               NA                0                  NA
          3   Number of media events conducted                                                     0               NA                0                  NA
          4   Number of community education events conducted                                      11               NA               11                  NA
                                    OUTCOME MEASURES
          5   Number of volunteers who, for the first time, conducted activities to
              educate beneficiaries                                                               0                NA                0                  NA
          6   Number of group sessions for beneficiaries led by volunteers                        0                NA                0                  NA
          7   Number of beneficiaries who attended group sessions led by
              volunteers                                                                          0                NA                0                  NA
          8   Number of one-on-one sessions held between beneficiaries and
              volunteers                                                                          0                NA                0                  NA
     7+8      Total number of beneficiaries educated                                              0                NA                0                  NA
          9   Estimated number of people reached by media events                                  0                NA                0                  NA
         10   Estimated number of people reached by community education
              events                                                                         281                   NA               281                 NA
         11   Number of complaints received attributable to the project                        5                   NA                 5                 NA
         12   Number of complaints referred for follow-up                                      0                   NA                 0                 NA
         13   Number of complaints that resulted in some action                                0                   NA                 0                 NA
      14      Medicare funds recovered attributable to the project                            $0                   NA                $0                 NA
    15A       Medicaid funds recovered attributable to the project                            $0                   NA                $0                 NA
    15B       Savings to beneficiaries attributable to the project                            $0                   NA                $0                 NA
    15C       Other savings attributable to the project                                       $0                   NA                $0                 NA
TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings                    $0                   NA                $0                 NA
  14 + 15     Total savings attributable to the project                                       $0                   NA                $0                 NA




                                                                                                                                                     82

  A    P       P     E   N   D   I   X   ~    D




                                                        Wyoming - Wyoming Division on Aging, Cheyenne
                                                                                           Total for        January through    July through    Change in Last 6
                                     PERFORMANCE MEASURES                                   2003               June 2003      December 2003        Months
                                             OUTPUT MEASURES
           1       Number of training sessions conducted to train new volunteers                        2                 1               1                    0
           2       Number of new volunteers trained                                                    39                35               4                  -31
           3       Number of media events conducted                                                     7                 2               5                    3
           4       Number of community education events conducted                                      18                 7              11                    4
                                         OUTCOME MEASURES
           5       Number of volunteers who, for the first time, conducted activities to
                   educate beneficiaries                                                                5                 4               1                     -3
           6       Number of group sessions for beneficiaries led by volunteers                        13                10               3                     -7
           7       Number of beneficiaries who attended group sessions led by
                   volunteers                                                                     373                   353              20                 -333
           8       Number of one-on-one sessions held between beneficiaries and
                   volunteers                                                                    1,584                  966              618                -348
      7+8          Total number of beneficiaries educated                                        1,957                1,319              638                -681
        9          Estimated number of people reached by media events                         222,000               112,000          110,000              -2,000
       10          Estimated number of people reached by community education
                   events                                                                        1,561                  340            1,221                881
       11          Number of complaints received attributable to the project                        33                   13               20                  7
       12          Number of complaints referred for follow-up                                       0                    0                0                  0
       13          Number of complaints that resulted in some action                                 0                    0                0                  0
      14           Medicare funds recovered attributable to the project                             $0                   $0               $0                 $0
    15A            Medicaid funds recovered attributable to the project                             $0                  NA                $0                NA
    15B            Savings to beneficiaries attributable to the project                             $0                  NA                $0                NA
    15C            Other savings attributable to the project                                        $0                  NA                $0                NA
TOTAL 15           Total Medicaid funds, beneficiary savings, and other savings                     $0                   $0               $0                 $0
  14 + 15          Total savings attributable to the project                                        $0                   $0               $0                 $0




                                                                                                                                                          83

�    A P P E N D I X               ~     E 





                                    List of 2003 Senior Medicare Patrol Projects

This Appendix lists all of the projects that operated in 2003. The first column shows the State in which the project is located. If there
is more than one project in a State, an abbreviation of the name of the project follows. The next two columns show the full name of
the project and the number of years the project has operated.

Four of the projects are no longer operating:

    1.   Arkansas Seniors Organized for Progress ended in June 2002.
    2.   Baylor University, Texas ended in June 2002.
    3.   Western Reserve Area Agency on Aging, Ohio, ended in December 2002.
    4.   West Virginia University Research Corporation ended in June 30, 2003.

Six projects started operating as of July 1, 2003. These projects are:

    1.   Via Christi Foundation, Kansas
    2.   North Carolina Department of Insurance
    3.   Legal Assistance of North Dakota, Inc.
    4.   Community of Vermont Elders
    5.   Great Lakes Inter-Tribal Council, Wisconsin
    6.   AARP Foundation, West Virginia




                                                                                                                                       84

A   P   P    E   N   D   I   X   ~   E


                                                     2003 Senior Medicare Patrol Projects
                                                                                                              Years of Operation
Alabama                              Alabama Commission on Aging                                                     4.5
Alaska                               Alaska State Division of Senior Services                                        4.5
Arizona                              Arizona Department of Economic Security                                         4.5
Arkansas                             Arkansas Division of Aging and Adult Services                                   1.5
California                           California Health Insurance Counseling Advocacy Programs Association            6.5
Colorado                             Colorado Division of Insurance                                                  4.5
Connecticut                          Connecticut Department of Social Services                                       4.5
Delaware                             Delaware Department of Health and Social Services                               4.5
District of Columbia -AARP           District of Columbia-The AARP Foundation                                        4.5
District of Columbia -FH             District of Columbia-Friendship House                                           4.5
Florida                              Tampa Bay Regional Planning Council                                             4.5
Georgia - ARC                        Atlanta Regional Commission                                                     4.5
Georgia - DHR                        Department of Human Resources, GA                                               4.5
Hawaii                               Hawaii Executive Office of Aging                                                6.5
Idaho                                Idaho Medicare Watch Partnership                                                4.5
Illinois                             Suburban Area Agency on Aging                                                   6.5
Indiana                              Indiana Division of Disability, Aging and Rehabilitation                        4.5
Iowa                                 Iowa Department of Elder Affairs                                                6.5
Kansas                               Via Christi Foundation, Inc.                                                    0.5
Kentucky                             Kentucky Association of Senior Service Corps Programs                           2.5
Louisiana                            Vernon Parish Council on Aging, Inc.                                            3.5
Maine                                Maine Department of Human Services' Bureau of Elder and Adult Services          4.5
Maryland                             Maryland Office on Aging                                                        6.5
Massachusetts                        Elder Services of Merrimack                                                     4.5
Michigan                             Area Agencies on Aging Association of Michigan                                  4.5
Minnesota                            Minnesota Board of Aging                                                        6.5
Mississippi                          Mississippi Department of Human Services                                        3.5
Missouri                             District III Area Agency on Aging                                               6.5
Montana                              Missoula Aging Services                                                         4.5
Nebraska                             Nebraska Department of Health and Human Services                                3.5

                                                                                                                                   85

A    P     P   E   N   D   I   X   ~   E
                                                               2003 Senior Medicare Patrol Projects          Years of Operation
    Nevada                                 Nevada Division of Aging Services                                         4.5
    New Hampshire                          New Hampshire Division of Elderly and Adult Services                      6.5
    New Jersey                             Jewish Family & Vocational Services of Middlesex County, Inc.             2.5
    New Mexico                             New Mexico State Agency on Aging                                          4.5
    New York                               New York State Office for the Aging                                       6.5
    North Carolina - DOA                   Department of Health and Human Services, Division of Aging                3.5
    North Carolina - DOI                   Department of Insurance                                                   0.5
    North Dakota                           Legal Assistance of North Dakota, Inc.                                    0.5
    Ohio-COAAA                             Central Ohio Area Agency on Aging                                         1.5
    Ohio-PSI                               Pro Seniors, Inc.                                                         1.5
    Oklahoma                               State of Oklahoma Insurance Department                                    4.5
    Oregon                                 Senior Medicare Patrol Project                                            4.5
    Pennsylvania                           Center for Advocacy for the Rights and Interests of the Elderly           6.5
    Puerto Rico                            Governor's Office of Elderly Affairs                                      4.5
    Rhode Island                           Aging 2000, Inc.                                                          6.5
    South Carolina                         Department of Health and Human Services                                   3.5
    South Dakota                           East River Legal Services Corporation                                     3.5
    Tennessee                              Upper Cumberland Development District/AAA                                 2.5
    Texas - BBBEF                          Better Business Bureau Education Foundation                               1.5
    Texas - NHCOA                          The National Hispanic Council on Aging                                    4.5
    Utah                                   Utah Legal Services                                                       4.5
    Vermont                                Community of Vermont Elders                                               0.5
    Virginia                               Virginia Association of Area Agencies on Aging                            4.5
    Washington                             Office of the Insurance Counselor                                         4.5
    West Virginia - AARP                   AARP Foundation                                                           0.5
    West Virginia - URC                    West Virginia University Research Corporation                     2.0 (ended June ’03)
    Wisconsin - CWAG                       Coalition of Wisconsin Aging Groups                                       6.5
    Wisconsin - GLITC                      Great Lakes Inter-Tribal Council                                          0.5
    Wyoming                                Wyoming Division on Aging                                                 3.5




                                                                                                                                    86

87

